<html>
<title> - FEDERAL RESEARCH AND DEVELOPMENT BUDGET AND THE NATIONAL SCIENCE FOUNDATION</title>
<body><pre>[Senate Hearing 107-1074]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1074

   FEDERAL RESEARCH AND DEVELOPMENT BUDGET AND THE NATIONAL SCIENCE 
                               FOUNDATION

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON SCIENCE, TECHNOLOGY,
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
91-497                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                      RON WYDEN, Oregon, Chairman
JOHN D. ROCKEFELLER IV, West         GEORGE ALLEN, Virginia
    Virginia                         TED STEVENS, Alaska
JOHN F. KERRY, Massachusetts         CONRAD BURNS, Montana
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi
MAX CLELAND, Georgia                 KAY BAILEY HUTCHISON, Texas
JOHN EDWARDS, North Carolina         SAM BROWNBACK, Kansas
JEAN CARNAHAN, Missouri              PETER G. FITZGERALD, Illinois
BILL NELSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 22, 2002.....................................     1
Statement of Senator Allen.......................................     7
Statement of Senator Wyden.......................................     4

                               Witnesses

Colwell, Hon. Rita R., Ph.D., Director, National Science 
  Foundation.....................................................    14
    Prepared statement...........................................    16
Gingrich, Hon. Newt, Chief Executive Officer, The Gingrich Group.    27
Leshner, Alan I., Ph.D., Chief Executive Officer, American 
  Association for the Advancement of Science.....................    36
    Prepared statement...........................................    38
Marburger, Hon. John, Ph.D., Director, Office of Science and 
  Technology Policy..............................................     9
    Prepared statement...........................................    11
McCoy, Tom, Vice President of Research, Montana State University.    48
    Prepared statement...........................................    51
Podesta, John D., Visiting Professor of Law, Georgetown 
  University Law Center..........................................    29
    Prepared statement...........................................    31
Torr, Marsha R., Ph.D., Vice President for Research, Virginia 
  Commonwealth University........................................    54
    Prepared statement...........................................    55

                                Appendix

Washington, Warren, Chair, National Science Board, prepared 
  statement......................................................    69

 
   FEDERAL RESEARCH AND DEVELOPMENT BUDGET AND THE NATIONAL SCIENCE 
                               FOUNDATION

                              ----------                              


                        WEDNESDAY, MAY 22, 2002

                                       U.S. Senate,
           Subcommittee on Science, Technology, and Space, 
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:39 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
Chairman of the Subcommittee, presiding.
    Senator Wyden. The Subcommittee on Science, Technology, and 
Space will come to order. I'm very pleased that we're joined by 
our colleague and good friend from Georgia, Senator Cleland. 
He's under a very tight time schedule, so I will let him begin 
with his opening statement.
    Senator Cleland. Thank you very much, Mr. Chairman. I 
really have three questions of Dr. Colwell. If I could go ahead 
and ask them, then I'll be free to go.
    Senator Wyden. Well, why don't we go ahead and do that? We 
are nothing, if not flexible on this Committee.
    [Laughter.]
    Senator Cleland. Thank you.
    Dr. Colwell, thank you very much for being with us. I think 
that many of us would agree that in order to advance 
information technology equitably in today's society, it's 
necessary to ensure that we strive to close the digital divide 
that exists between the more affluent educational institutions 
of higher education and those with less means to compete for 
R&D funding.
    Toward this end, last week the Senate Commerce Committee 
reported out S.414, legislation which I sponsored and which is 
cosponsored by 15 of my Senate colleagues, nine of which are on 
this Committee, actually. This legislation would create a $250 
million grant program in the Department of Commerce to help 
close the technology gap at Minority-Serving Institutions of 
higher education in America. The funds would go directly to the 
institutions--Historically Black Colleges and Universities, 
Hispanic-Serving Institutions, and Tribal Colleges and 
Universities. Funds provided under this legislation could be 
used for such activities as campus wiring, equipment upgrade, 
technology training, and hardware and software acquisition. 
MSIs can compete for funding regardless of where they are on 
the technology spectrum.
    Prior to the Committee markup, there were discussions by 
Senate staff and the associations representing Minority-Serving 
Institutions, or MSIs, on whether to leave the technology 
program in the Department of Commerce or move it to the 
National Science Foundation. At the end of the day, the 
decision was to leave it in Commerce, even if the authorization 
level of the program had to be significantly reduced.
    Some of the groups said they came to this decision out of 
concern that NSF programs serving Minority-Serving Institutions 
historically have suffered from administrative neglect and 
inadequate funding.
    Dr. Colwell, I have been told that, according to data from 
the NSF budget division, no Historically Black College or 
University or Tribal College was listed among the top 100 
institutions of higher education receiving NSF awards last 
year, and less than one percent of this NSF award money went to 
Hispanic-Serving Institutions. Can you tell me if this 
information, as far as you know, is accurate? And, if so, why 
do you believe this is the case?
    Dr. Colwell. In order to respond forthrightly and directly 
to your question, I would have to say that I would have to go 
the budget for the exact percentages and figures. But I would 
like to bring to your attention the strategy that we are using 
to address this very important and critical issue of the 
digital divide in minority-served institutions, and that is not 
simply to fund only direct grants to the institutions, but to 
include, across the foundation, horizontally integrated 
programs to address minority institutions and minority 
participation in science and engineering.
    We believe it far more effective to include every 
directorate and to put the responsibility on all of us, as an 
agency, to work toward improving the participation of 
minorities in science and engineering education so that the 
programs that we do have, such as the Louis Stokes Alliance for 
Minority Participation, an extremely successful program, we 
intend to increase in the coming years.
    This program is doing very well, and it is essentially 
level-funded this year, but it is our intent to increase that 
program, because it has graduated 21,000 science and 
engineering bachelors degrees in the last decade or so, and it 
has had approximately 171,000 participants in the program. We 
have some extraordinarily good programs which we think are 
highly effective.
    We are addressing this issue with a great deal of 
attention, because I do consider it to be the most important 
issue for the next decade of this country.
    Senator Cleland. Well, it's my understanding along those 
lines that, in 1999, the National Science Foundation awarded 
the nonprofit organization, Educause, a four-year $6 million 
grant for the purpose of upgrading technology at minority-
serving colleges and universities. I've been told that the 
grant money flowed to Educause and not the institutions 
themselves, that Educause, not NSF, made the decision on which 
MSIs were to be involved in the technology project, and that 
Educause provided the technical assistance to the institutions. 
Is that correct?
    Dr. Colwell. The funding was made to Educause, sir, and the 
program is being coordinated by Educause. Educause is an 
effective organization, but if there are some difficulties with 
the awarding of the funds, we will certainly look into it. The 
process that they are using is a very appropriate one.
    Senator Cleland. Could you please tell us what activities 
were funded with the Educause grant? Have you got any idea?
    Dr. Colwell. I can ask the education representative who is 
here. Would you speak to this? Would you identify yourself, 
please?
    Mr. Fortenberry. I'm Norman Fortenberry, division director 
of undergraduate education. We could provide the information in 
detail for the record. [The information referred to follows.]

Activities Funded Through the Educause Grant
    The award to Educause provides support for a series of activities 
designed to enable minority-serving institutions to prepare for and 
then participate in national advanced networking initiatives, including 
lnternet2 and Next Generation Internet (NGI). Included are workshops 
and training programs intended to assist administrators in devising 
technology strategies and financing plans for their institutions. 
Similar programs will develop the human support infrastructure in these 
colleges and universities. Yet other activities are aimed at preparing 
the faculty and students in the use of the high performance networks. 
An important aspect of this latter array of activities is the 
involvement of the Education, Outreach, and Training (EOT) program that 
is part of NSF's Partnerships for Advanced Computational Infrastructure 
(PACI). Coupled with and integral to all of these programs and 
activities will be experiments with and prototypes of advanced, 
innovative network technologies for Internet access or for vBNS or 
Abilene access. In particular, these advanced technologies will seek to 
attack the problems of cost and access for locations that have limited 
telecommunications options.

    In general, what Educause is doing is working with a 
variety of colleges. They have teams that go out to the 
colleges, work with the college representatives to identify 
their needs, and then provide the assistance.
    We'll provide the details for the record.
    Senator Cleland. All right, thank you. I didn't want to get 
too specific, but I had to get a little feedback here. Have you 
done an evaluation of this Educause grant?
    Dr. Colwell. The grant is in its second year. We would not 
be doing evaluation until completion.
    Senator Cleland. Does the National Science Foundation 
commonly award grants to nonprofit organizations like Educause 
rather than directly to the colleges and universities 
themselves?
    Dr. Colwell. This is a consortium of educational 
institutions. We routinely make awards directly to institutions 
on a competitive basis, and this award was made competitively. 
It is not an exception to the rule. It is simply one of the 
mechanisms that we use, but not as frequent as a direct award.
    Senator Cleland. Well, the funding mechanism is one of the 
things that gave rise to my pushing and sponsoring S.414. There 
are two provisions in my legislation which serve to guarantee 
the grant money is targeted to those who, number one, need it 
most. The grants are required to go directly to the eligible 
Minority-Serving Institution. And, two, the peer-review panels 
established in S.414 are required to be made up of members of 
the MSI community.
    First, let me just ask you if you think the National 
Science Foundation would want to administer the program created 
by this legislation, should my legislation be enacted?
    Dr. Colwell. Sir, we are poised to do an outstanding job. 
We will work extremely hard to achieve what is the most 
important objective, as was stated in the report addressing 
homeland security, the Rudd-Hartman Report. Second only to an 
attack on one of our major cities, which has already occurred, 
to lose leadership in science and math in engineering research 
and education, would be a catastrophe for our country.
    The answer is, sir, if the money were put in the NSF 
budget, we would use it to serve the country well, and we would 
be diligent in applying the funds effectively.
    Senator Cleland. Thank you. Secondly, if S.414 is passed 
into law, if it's the will of a majority of the members of 
Congress to place the program at NSF, would NSF adhere to the 
intent of the legislation?
    Dr. Colwell. We would adhere to the intent of the 
legislation, sir.
    Senator Cleland. Yes. I presume so. Would you ensure----
    Dr. Colwell. Our record would show that.
    Senator Cleland. Yes. Would you ensure that the grants 
would go directly to the institutions themselves and that the 
peer-review panels would be made up of members of the MSI 
community?
    Dr. Colwell. The answer is yes, but I would also point out 
that we already do have members of Minority-Serving 
Institutions serving on panels, and so this would be entirely 
within the typical process of the National Science Foundation.
    Senator Cleland. Would the entire peer-review panel be made 
up of members of the MSI community?
    Dr. Colwell. I would suggest that it would be best to have 
a cross-section of the community, that it is very important, to 
do peer review in the NSF process, and it's critical that we 
have the very best representation, and this would include the 
Minority-Serving Institutions, on the panel, sir.
    Senator Cleland. Thank you very much for allowing me to ask 
these questions directly to you. I'm very much interested in 
overcoming the digital divide, and we appreciate your help in 
that regard.
    I might say, Mr. Chairman, before I close, that when I 
graduated from high school, I wanted to be a science teacher, 
and I went to college. I was going to major in physics. That 
lasted three days, and there ended my career as a science 
teacher.
    Senator Cleland. But we appreciate those of you involved in 
science. Thank you very much.
    Dr. Colwell. Thank you, sir.
    Senator Wyden. I thank my colleague. You've been a leader 
in the effort to close the digital divide, Senator Cleland, and 
we very much appreciate all the work you're pursuing.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Today, the Subcommittee on Science, 
Technology, and Space convenes to examine the federal research 
and development portfolio, with particular emphasis on the 
National Science Foundation. It's my belief that supporting 
sound science and encouraging technological innovation is 
simply the right role for government. From calling the nation's 
technology experts and entrepreneurs to service after September 
11th, to steering NASA back towards its original scientific 
mission, this Subcommittee, on a bipartisan basis, has spent 
the last year working to foster American research and 
development. The fields of mathematics research, social and 
behavioral sciences, and others have all been identified as 
ripe for major scientific advances. In the coming years, 
nanotechnology research funded by the National Science 
Foundation could aid the development of electronic circuits and 
devices from a single atom or a molecule.
    Here is my bottom line. Failing to invest in programs that 
improve math and science achievement plays Russian roulette 
with Oregon and our national security that cannot be allowed to 
happen. As chair of this Subcommittee, with jurisdiction over 
the National Science Foundation, I'm unwilling to see America's 
science research and development sit stagnant when such great 
strides might be made.
    In 1997, Congress committed to doubling the funding for 
research at the National Institutes of Health. I'm proud to 
report that the current White House, my congressional 
colleagues, and I are committed to maintaining that level of 
funding. But this nation's investment at the National 
Institutes of Health ought to be followed with a similar 
investment at the National Science Foundation.
    The National Coalition for Science Funding has advocated a 
$718 million or a 15 percent increase in NSF funding over 
fiscal-year 2002 levels. Across five years, this will double 
the science research budget at the National Science Foundation.
    I strongly support this proposal. It's my view that to 
realize the full benefits of investing in any one scientific 
sector, the whole spectrum of science must have adequate 
support. Advancements in one area may lead to amazing 
discoveries in yet another field.
    For example, nuclear magnetic resonance was discovered in 
1946. Over the next decades, NSF supported investments in 
science and instrumentation to help understand and harness this 
phenomena. The eventual result was magnetic resonance imaging, 
MRIs. Today, doctors worldwide use those MRIs to diagnose a 
variety of conditions.
    The MRI illustrates a point that a number of our witnesses 
are going to address today. In the 1950s, it was hard to 
predict that funding an interesting physics experiment would 
eventually enhance human health. Nonetheless, this basic 
research in the physical sciences, practically applied, now 
saves lives around the world.
    In another example, the advances in the human genome 
project would not be possible without recent leaps in computer 
technology that let the genome be sequenced. To me, this is the 
case for increasing National Science Foundation investment to 
match the efforts at NIH.
    In this year's federal budget, the Office of Management and 
Budget applauded financial management at NSF with what's called 
a ``green light'' designation, but that applause was not 
accompanied by any actual increases in the NSF research budget. 
On the contrary, the budget increases funding for NSF research 
about 3.5 percent. When you consider the programs transferred 
from other agencies account for about half that amount, the 
real increase is nearly negligible.
    This is serious business, because highly promising 
scientific research is not taking place, just because the NSF 
can't fund it. Thirteen percent of highly rated proposals to 
NSF get rejected just for the lack of dollars. If Congress and 
the Administration could double the NSF funding, as funding was 
doubled at NIH, our scientific horizons would be broadened 
immeasurably. Not just the quantity, but the quality of the 
research could be improved, as well.
    In the year 2000, the average NIH grant was nearly more 
than three times the size of the average NSF grant, and the NIH 
grant periods were more than a year longer. Scientists who 
depend on NSF need to be able to spend less time chasing 
funding and more time in their laboratories. Rarely does any 
financial investment hold as much promise for practical return 
as investment in scientific R&D.
    I hope that today this Subcommittee can begin a significant 
and serious discussion of doubling the NSF research budget, 
realizing the potential for long-term, even life-saving 
dividends.
    On a final note with respect to NSF, there is one program 
that I do not believe should be under the Foundation's 
jurisdiction. We've strongly opposed the proposed transfer of 
the Sea Grant College Program from NOAA to NSF. Last week, this 
panel ordered a bill reported which authorizes the Sea Grant 
Program within NOAA.
    Today is going to give us an opportunity to hear from 
witnesses who will help us look at NSF and to the possibilities 
for the rest of the nation's scientific research and 
development portfolio. Dr. John Marburger, the President's 
distinguished science advisor, has discussed with me ways to 
discuss the skills and entrepreneurial talents of this nation's 
scientists and technologists to enhance homeland security.
    In particular, Dr. Marburger, I want to express my 
appreciation to you and to the Administration for the help you 
have given us in developing the NetGuard proposal. As you know, 
at a time when we're mobilizing all across this country, the 
first responders and so many others, what we ought to be doing, 
as John Kennedy asked decades ago, is taking steps to mobilize 
other Americans, particularly those who are familiar with 
digital technologies. And with your help and the 
Administration's, we've been able to get that legislation out 
of the committee.
    It's my view, as I said earlier, I think these are national 
security matters. I think you're playing Russian roulette with 
national security if you fail to invest in math and science 
programs that could beef up achievement levels and fail to make 
these investments that we're discussing today.
    So I'm very pleased to have had a chance to work with you 
and, this afternoon, to talk about the nation's overall science 
portfolio as well as the interagency research programs, 
particularly in nanotechnology that we have discussed in the 
past.
    I also want to give a brief introduction for our other 
witnesses. Dr. Rita Colwell, the director of the National 
Science Foundation, a very distinguished leader in the field. 
We're also pleased to have Speaker Gingrich here, who I had a 
chance to work with on health and science policy when I was in 
the House. John Podesta, a senior advisor in the previous 
Administration, with a long, long record of interest and 
expertise in science policy.
    And I'm especially pleased that Speaker Gingrich and John 
Podesta could be on the same panel. Some might think we're 
heading for crossfire or something this afternoon.
    [Laughter.]
    Senator Wyden. But to have these two very distinguished 
leaders, leaders in politics who are perhaps best known as 
leaders in politics, to have a chance to talk about science 
issues, because they have spent so many years working in the 
trenches with science policy, is something I especially 
appreciate both of them making time for.
    We're also going to have Dr. Alan Leshner here, of the 
American Association for the Advancement of Science, Mr. Thomas 
McCoy, of Montana State University, Dr. Marsha Torr, of 
Virginia Commonwealth University.
    Before we go to our witnesses, I want to recognize my 
colleague Senator Allen. He and I, working together, were able 
to team up on several bills that got out of the full committee 
last week, particularly the important legislation to fund the 
cyber-security measures in addition to the NetGuard Bill. And 
it's been a real pleasure working with you, Senator Allen, and 
you can make any statement you proceed with.

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and thank you for 
your leadership on so many issues. I very much enjoy working 
with you. It's nice to find a kindred soul on so many of these 
important issues for the future of our country. I thank you for 
calling this hearing on the federal R&D budget and the National 
Science Foundation. I also want to thank one witness from the 
Commonwealth of Virginia, Dr. Torr, for being here. And it's 
good to see the president of VCU, Virginia Commonwealth 
University, here, as well, Gene Charney, sitting next to the 
Speaker and the rest of our distinguished panel.
    Let me make a few opening remarks here, and then I want to 
listen to our esteemed panelists and let you all know where I'm 
coming from, and it's very close to your views, Mr. Chairman.
    If one looks back on the last decade, in the 1990s, in our 
country we achieved what many thought was impossible, if they 
were even thinking about it. The economy grew, jobs were being 
created, standards of living were improved without driving up 
inflation. Much of the success in this country is due to the 
advancements and improvements from technology in the technology 
sector, which is a diverse sector--everything from the 
fabrication of semiconductor chips to the applications to the 
communications to the medical adaptations, education and the 
rest. The result, in the 1990s, was almost, in my view, an 
unprecedented expansion of opportunity and prosperity, the best 
clearly in the whole past century.
    Now, this was done through innovation, innovation that 
improved our quality of life. It is a challenge now, as we're 
into this century, the next decade, and the tech sector is a 
little down right now. But nevertheless, our challenge is to 
continue this innovation economy. And one of the key elements 
to this innovation process is a technically talented and 
competent and capable workforce. The National Science 
Foundation plays a key role in these opportunities in its 
education and research programs.
    Now, I don't think the government ought to do everything. 
The government--the federal government has certain 
responsibilities, the state government has certain priorities 
and responsibilities. At the state level, your top 
responsibilities are law enforcement and education. At the 
federal level, it's national defense, national security, and 
education. Much of that education at the federal level, sure, 
is funding to the states for schools with maximum flexibility, 
but as far as the universities and colleges, it's through 
research grants, working with them in the private sector.
    The federal government, as any government, needs to make 
sure that you have the right conditions precedent for 
opportunity and risk-taking and investment and jobs to occur, 
and that means we have to have pro-entrepreneurial tax 
policies, regulatory policies that are based on sound science, 
as opposed to political science.
    But this is where you all come in, as part of the education 
aspect of it, the competitiveness of individuals. In this 
country, in America, an individual ought to be limited only by 
his or her imagination. I always loved de Toqueville's quote 
and observations back in the early part of the 1800s in this 
country about, ``America is always on the move. Everything's in 
constant change, and the only things that have not been done 
are those that have not been attempted.'' But that concept, 
that drive, that spirit that we're only limited by our 
imagination will propel us forward.
    Now, there's so much agreement here that I had several 
paragraphs of my opening statement here that Senator Wyden 
used, so I'm not going to get into those and repeat them. So 
this shows great agreement on where NSF and research and MRIs 
and all that works.
    Now, one of the other important challenges that he did not 
talk about in such great detail is our scientific and economic 
leadership that is being reduced because there is a fewer 
number of American students pursuing mathematics, science, 
computer, and engineering degrees. The bill that Senator 
Cleland introduced, which I cosponsored, while I would have 
liked to see it expanded to schools in Appalachia and some 
areas like that, does not have the perfect harm, what can be 
helpful as far as Hispanic serving and historically black 
universities and making sure that students in those colleges 
and universities have the technology so that they can join in 
the great opportunities for jobs in the computer sciences area.
    Now, a report in September of 2000 by the National 
Commission on Mathematics and Science Teaching for the 21st 
Century, entitled ``Before It's Too Late,'' states that jobs in 
the computer industries and health sciences requiring science 
and mathematics skills will increase by 5.6 million by the year 
2008--5.6 million, and that's just six years from now. 
According to this report, 60 percent of all the new jobs in the 
early part of this century will require skills that are held by 
just 20 percent of the current workforce.
    I think it's absolutely essential that we do everything we 
can to make sure that Americans--I don't care where they may be 
in our states or communities--that they're getting the 
education so they can seize those opportunities and get those 
jobs. I don't mind having folks coming in from elsewhere in the 
world. They're productive, useful to our system, and we welcome 
them, but there are a lot of people in this country that ought 
to be getting that education so that they can get those jobs. 
And we've heard from many federal agencies, not just NSF, but 
NASA, especially in aviation and aeronautics, that we have an 
aging workforce.
    And I look forward to this--to hearing from the research 
community and leaders who are also very converse and 
knowledgeable about these challenges and how, in particular, 
we're going to address these concerns. They're concerns for the 
individuals--the individual's ability to compete and succeed in 
the future. But as they're able to compete and succeed, so does 
our civilization and our nation.
    And I thank you all. And again, Mr. Chairman, thank you for 
holding this very important and timely hearing.
    Senator Wyden. I thank my colleague for an excellent 
statement, and we will be working on all of these issues 
together, as we have in the past.
    Dr. Marburger?

 STATEMENT OF HON. JOHN MARBURGER, Ph.D., DIRECTOR, OFFICE OF 
                 SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Thank you, Mr. Chairman, Members of the 
Subcommittee. I have a longer written testimony that I'm 
submitting for the record and an abbreviated oral one, if 
you'll permit me.
    I am pleased to appear before you today to discuss the 
President's Fiscal Year (FY) 2003 budget request for research 
and development. Shortly after I was confirmed as director of 
OSTP at the end of October by this parent committee, the 
director of the Office of Management and Budget invited me to 
attend and participate in internal OMB decision-making sessions 
involving science programs. I was glad to sit in on the budget 
reviews for science. They gave me a greater appreciation for 
the issues and an opportunity to represent the science 
perspective on important aspects of this budget, such as 
increased accountability and performance measures for basic 
science agencies.
    The terrorist attacks on September 11th dramatically 
changed the context for this budget. The attacks laid bare 
vulnerabilities in our physical security and exacerbated 
weaknesses in our economy. The priorities of the nation 
drastically changed in a matter of a few hours. This budget 
reflects the change in priorities and three primary goals: 
winning the war on terrorism, protecting the homeland, and 
reviving our economy.
    Recognizing that science must play a role in these 
priorities, the President provides for an unprecedented level 
of investment in federal R&D. This is the first time in history 
that a president has requested an R&D budget greater than $100 
billion. The precise figure is $111.8 billion, up eight percent 
overall from fiscal year 2002. This is the largest requested 
increase for R&D in over a decade.
    Additionally, the federal science and technology category 
is up nine percent. I wanted to explain that this is a 
compilation--this federal science and technology category 
contains expenditures in a set of fields originally proposed by 
the National Academy of Sciences to more accurately reflect 
science and technology expenditures. It accounts for nearly all 
of federal basic research and over 80 percent of federal 
applied research and about half of civilian development.
    Mr. Chairman, this is a good budget for science, and I look 
forward to working with Congress to see it successfully 
enacted.
    These science and technology investments will enable the 
Administration to enhance homeland security, national security, 
and global stability, to promote long-term economic growth that 
creates high-wage jobs, support a healthy, educated citizenry, 
harness information technology, improve environmental quality, 
and maintain world leadership in science, engineering, and 
mathematics.
    So let me direct your attention to some specifics within 
this budget. Because many agencies contribute to the overall 
science missions, the most important cross-cutting themes have 
been identified, and there are budgets compiled across all 
agencies. While my written testimony provides snapshots of the 
R&D budgets of the agencies under this committee's 
jurisdiction, let me take a moment to describe the 
Administration's cross-cutting efforts in R&D.
    First, information technology, nanotechnology, and health 
research continue to be high priorities for our nation. The 
past year has seen an increase in priority for climate-change 
R&D.
    At the top of the list, however, not surprisingly, is anti-
terrorism. Our success in preventing, detecting, and responding 
to terrorist activities over the long-term will depend on 
technology. The President's 2003 budget continues the 
Administration's strong support of research and development to 
counter emerging terrorist threats by increasing R&D funding 
for homeland security and combating terrorism, including 
protecting critical infrastructure, from nearly $1 billion in 
2002 to an estimated $3 billion in 2003.
    In nanotechnology, R&D will increase by 17 percent over 
last year. This $679 million multi-agency initiative focuses on 
long-term research on the manipulation of matter down to the 
atomic and molecular levels giving us unprecedented 
opportunities for new classes of devices as small as molecules, 
and machines as small as human cells.
    In networking and information technology, another cross-
cutting area, R&D will increase by three percent. This brings 
the overall investment to $1.9 billion in this mature, but 
still critically important area. It provides the base 
technologies to ensure that the U.S. maintains its dominant 
position in the application of information technology to 
critical national defense and national security needs as well 
as to scientific research, education, and economic innovation.
    Improving human health is a major priority. Although not 
aggregated as a cross-cutting budget category, health research 
draws on capabilities of many agencies. During the presidential 
campaign, the President promised to double the budget of NIH by 
2003 from its 1998 levels. That commitment is met in this 
budget, which includes the final installment of a $3.9 billion 
increase paving the way toward better diagnostics, treatments, 
and cures that affect the lives of all Americans.
    Climate change research, finally, has become an important 
driver for the nation's research agenda. Two new initiatives, 
the climate-change research initiative will receive $40 million 
to be shared among five agencies, and the National Climate 
Change Technology Initiative is designated to receive $40 
million within the Department of Energy budget. The ongoing 
U.S. Global Change Research Program will receive $1.7 billion, 
a $44 million or 3 percent increase.
    In addition to funding these priority areas, the budget 
also emphasizes the effectiveness of the dollars spent. The 
agency's scorecard approach is still at the experimental stage 
this year, at least for science budgets. Although only one 
agency achieved the green light in any category, I'm pleased 
that it was the National Science Foundation.
    The President's management agenda is as relevant to science 
missions as to other agency operations, and I look forward to 
working with OMB to make its provisions a useful tool for these 
agencies.
    Mr. Chairman, I hope that this brief overview, combined 
with my written statement, conveys to you the extent of this 
Administration's commitment to advancing science and technology 
in the national interest. I appreciate very much the 
longstanding bipartisan support of this committee for the 
Office of Science and Technology Policy and for the science and 
technology research enterprise, and I would be pleased to 
respond to specific questions about this budget or any other 
matter.
    [The prepared statement of Dr. Marburger follows:]

   Prepared Statement of Hon. John Marburger, Ph.D., Director of the 
                Office of Science and Technology Policy

    Mr. Chairman and Members of the Subcommittee, I am pleased to 
appear before you today to discuss the President's Fiscal Year 2003 
budget request for research and development.
    When I testified prior to my confirmation by your Subcommittee last 
October, I expressed my desire to ``form a close and productive 
relationship with Congress, which has long provided bipartisan and 
enduring support of our world-leading science and engineering 
enterprise. The counsel and support of Members of Congress is an 
essential element of continued U.S. leadership across the frontiers of 
scientific knowledge.'' I look forward to working with you, Mr. 
Chairman, and your Subcommittee, to demonstrate this commitment to 
science and engineering excellence once again this year. President Bush 
has set forth an agenda for science funding in the forthcoming fiscal 
year that takes advantage of important opportunities for discovery and 
development and sustains the basic machinery of research and 
development that will be necessary for continued national leadership in 
science and technology.
    Last October I also referred to the fact that we must make 
important choices together because we have neither unlimited resources 
nor a monopoly of the world's scientific talent. I continue to believe 
that wise choices among the multitudes of possible research programs 
are necessary and that we must decide which programs to launch, 
encourage, and enhance and which ones to modify, reevaluate, or 
redirect in keeping with our national needs and capabilities. The 
President's FY 2003 Budget includes principles that will improve the 
management of the Nation's science and technology enterprise, taking 
advantage of best practices, and emphasizing the importance of good 
planning, execution, reinforcement of good performance, and changing 
poor performance. I look forward to working with Congress to ensure 
that the federal government's significant investment, now over $100 
billion, is deployed to optimal effect.

PRESIDENT BUSH'S FY 2003 R&D BUDGET
    Shortly after I was confirmed as Director of the Office of Science 
and Technology Policy at the end of October, the Director of the Office 
of Management and Budget invited me to attend internal OMB decision-
making sessions involving science programs. This series of meetings 
gave me a greater appreciation for the issues and an opportunity to 
represent the science perspective on important aspects of the 
forthcoming budget, such as increased accountability and performance 
measures for R&D agencies. Following these meetings, my office has 
continued to work closely with OMB to share information and develop a 
mutual understanding of the complex issues involved in establishing the 
Nation's science and technology budgets.
    As you well know, agency budget proposals are submitted to OMB in 
mid-September for their review. The terrorist attacks on September 11 
dramatically changed the context for this budget. The attacks laid bare 
vulnerabilities in our physical security and exacerbated weaknesses in 
our economy. The priorities of the Nation drastically changed in a 
matter of hours.
    The budget reflects the change in priorities and three primary 
goals:

  <bullet> Winning the war on terrorism;
  <bullet> Protecting the homeland;
  <bullet> Reviving our economy.

    Recognizing that science must play a role in these priorities, the 
President provides for an unprecedented level of investment in federal 
R&D, marking the first time in history that a President has requested 
an R&D budget greater than $100 billion. At $112 billion, up 8 percent 
overall from last year, this is the largest requested increase for R&D 
in over a decade.
    The R&D budget is an imperfect measure of support for traditional 
science and technology activities. Another compilation, the Federal 
Science and Technology Budget, was originally proposed by the National 
Academy of Sciences to highlight the federal investment in research 
programs central to the creation of new knowledge. In this ``FS&T'' 
portfolio, the President's budget is up 9 percent. The FS&T activities 
account for nearly all of federal basic research, over 80 percent of 
federal applied research, and about half of civilian development, in 
addition to some other activities such as training and education in 
some R&D agencies.
    Mr. Chairman, this is a good budget for science, and I look forward 
to working with Congress to see it successfully enacted.
    These science and technology investments will enable the Nation to:

  <bullet> Enhance homeland security, national security, and global 
        stability;
  <bullet> Promote long-term economic growth that creates high-wage 
        jobs;
  <bullet> Support a healthy, educated citizenry;
  <bullet> Harness information technology;
  <bullet> Improve environmental quality; and
  <bullet> Maintain world leadership in science, engineering, and 
        mathematics.

    Now let me direct your attention to some specifics within this 
budget.

Interagency Initiatives
    The budget increases funding for a number of priority research 
areas that require multi-agency efforts. Information technology, 
nanotechnology, and health research continue to be high priorities for 
our Nation. The past year also has seen an increase in priority for 
climate change R&D. After the events of September 11th, antiterrorism 
efforts naturally lead the list.

  <bullet> Antiterrorism--our success in preventing, detecting, and 
        responding to terrorist activities over the long term will 
        depend on technology. The President's FY 2003 Budget continues 
        the Administration's strong support of research and development 
        to counter emerging terrorist threats by increasing R&D funding 
        for homeland security and combating terrorism (including 
        protecting critical infrastructure) from nearly $1 billion in 
        2002 to an estimated $3 billion in 2003.

  <bullet> The National Nanotechnology Initiative will increase by 17 
        percent over last year. This $679 million multi-agency 
        initiative focuses on long-term research on the manipulation of 
        matter at the atomic and molecular levels, giving us 
        unprecedented opportunities for new classes of devices as small 
        as molecules and machines as small as human cells.

  <bullet> Networking and Information Technology R&D will increase by 3 
        percent. This brings the overall investment to $1.9 billion in 
        this mature, but still critically important area. It provides 
        the base technologies necessary for the U.S. to maintain its 
        dominant position in the application of information technology 
        to critical national defense and national security needs, as 
        well as to scientific research, education, and economic 
        innovation.

  <bullet> Improving human health depends on health research that draws 
        on the capabilities of many agencies. During the Presidential 
        campaign, the President promised to double the budget of the 
        National Institutes of Health (NIH) by 2003 from its 1998 
        levels. That commitment is met in this budget, which includes 
        the final installment, a $3.9 billion increase, paving the way 
        toward better diagnostics, treatments, and cures that affect 
        the lives of all Americans.

  <bullet> Climate Change research has become an important driver for 
        the Nation's research agenda. The President created two new 
        initiatives in this budget. The Climate Change Research 
        Initiative will share $40 million among five agencies, and the 
        National Climate Change Technology Initiative will receive $40 
        million within the DOE budget. The ongoing U.S. Global Change 
        Research Program will receive $1.7 billion, a $44 million (3 
        percent) increase.

Highlights of Agency FS&T Budgets
    The following examples provide a snapshot of the Administration's 
S&T request within the agencies under the jurisdiction of the 
Subcommittee.

  <bullet> National Aeronautics and Space Administration (NASA). The 
        budget provides $8.7 billion (an 8 percent increase) for NASA's 
        programs in the FS&T budget, including $3.4 billion for Space 
        Science (a 13 percent increase) and $2.9 billion for Aerospace 
        Technology. The latter includes planned funding increases for 
        NASA's Space Launch Initiative ($759 million), which will lead 
        to safer and lower cost commercial launch vehicles to replace 
        the Space Shuttle.

  <bullet> National Science Foundation (NSF). The budget provides a 
        $241 million increase (5 percent) for NSF. This increase will 
        provide $678 million for NSF's lead role in the Networking and 
        Information Technology R&D program, and $221 million for NSF's 
        lead role in the National Nanotechnology Initiative. The 
        President's Math and Science Partnerships Initiative, aimed at 
        increasing the quality of math and science education in Grades 
        K-12, will increase by $40 million to $200 million. The budget 
        also raises graduate level stipends from $21,500 to $25,000 
        annually, in order to further attract and retain the most 
        promising U.S. students into graduate level science and 
        engineering. NSF is very effective at managing competitive 
        research programs, and the budget proposes transferring to NSF 
        programs that will benefit from their effective management. 
        These programs include Sea Grant from the National Oceanic and 
        Atmospheric Administration, Water Quality Research from the 
        U.S. Geological Survey, and Environmental Education from the 
        Environmental Protection Agency.

  <bullet> Department of Energy (DOE). The budget provides $5 billion 
        for DOE's programs in the FS&T budget. The budget includes a 
        1.5 percent increase for DOE's science programs, as well as 
        continued support for construction and operation of large 
        scientific user facilities, including the Spallation Neutron 
        Source. The budget also includes a $22 million increase (up 6 
        percent) to DOE's Renewable Energy programs.

  <bullet> Department of Commerce (DOC). The budget includes $861 
        million for DOC programs in the FS&T budget. It provides $402 
        million (an increase of over 20 percent) for research and 
        physical improvements at NIST's Measurement and Standards 
        Laboratories, and $107 million for NIST's Advanced Technology 
        Program to promote competitive, cost-shared R&D partnerships. 
        The FS&T budget also provides $297 million for NOAA to improve 
        understanding of climate change, weather and air quality, and 
        ocean processes.

  <bullet> Department of Transportation (DOT). The budget provides $548 
        million for DOT's programs in the FS&T budget, including $421 
        million to support research to improve the quality and safety 
        of the Nation's highway transportation infrastructure, and $95 
        million for aviation security technology research.

  <bullet> Environmental Protection Agency (EPA). The budget provides 
        $797 million (a 6 percent increase) for EPA's programs in the 
        FS&T budget. The EPA budget funds research that provides a 
        sound scientific and technical foundation for environmental 
        policy and regulatory decision-making. The budget includes $75 
        million for R&D in technologies and procedures to cope with 
        future biological or chemical incidents.

    In addition to the agencies that fall within your Subcommittee's 
jurisdiction Mr. Chairman, the Department of Defense R&D efforts 
increase $5.4 billion (an 11 percent increase) to $54.5 billion and the 
National Institutes of Health budget increases by $3.9 billion (a 17 
percent increase) to $27.3 billion.

The President's Management Agenda
    Beyond funding these priority areas, the budget places emphasis on 
spending dollars effectively. The budget includes a scorecard to rate 
agency performance and progress in five important management areas. 
Although only one agency achieved a green light in any category, I am 
pleased that it is the National Science Foundation. The President's 
Management Agenda is as relevant to science missions as to other agency 
operations, and I look forward to working with OMB to make its 
provisions a more useful tool for all the agencies.
    In particular, among the provisions of the President's Management 
Agenda are investment criteria for research programs pilot-tested at 
DOE this past year. In consultation with stakeholders from agencies, 
industry, and academia, OMB and OSTP are broadening the use of the 
criteria to all types of R&D programs across the government in 2004.

    Mr. Chairman and Members of the Committee, I hope that this 
overview has conveyed to you the extent of this Administration's 
commitment to advancing science and technology in the national 
interest. I look forward to achieving bipartisan support for a national 
S&T strategy that will combine the resources of industry, academia, 
non-profit organizations, and all levels of government to protect our 
citizens, advance knowledge, promote education, strengthen 
institutions, and develop human potential.
    I ask for your support of OSTP's Fiscal Year 2003 budget request, 
and I also want you to know how much I appreciate the long-standing 
bipartisan support of this Subcommittee for the Office of Science and 
Technology Policy and for the science and technology enterprise. I 
would be pleased to answer any questions.

    Senator Wyden. Dr. Marburger, thank you. We'll have some 
questions in just a moment.
    Dr. Colwell?

 STATEMENT OF HON. RITA R. COLWELL, Ph.D., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Colwell. Thank you, Mr. Chairman, Senator Allen, and 
Members of the Subcommittee. I thank you very much for 
providing this opportunity to discuss the President's budget 
request for the National Science Foundation.
    America's present and future strength, prosperity, and 
global preeminence depend directly on fundamental research. 
Every year, the Foundation's optimal use of limited public 
funds has relied on two conditions. One, ensuring that our 
research and education investments are aimed, and continuously 
re-aimed, at the frontiers of understanding. And, two, 
certifying that virtually every dollar goes to competitive, 
merit-reviewed, and time-limited awards with clear criteria for 
success.
    NSF puts the greatest share of its resources where they 
will do the very most good, in the nation's colleges and 
universities where we make our investments. In addition to 
generating the new ideas and defining the future, every dollar 
invested in those universities contributes to recruiting and 
training the next generation of researchers.
    NSF has been proactive in implementing the President's 
management agenda, and we seek, and, in fact, we apply, the 
input from many sources to continuously improve the way we 
manage programs at NSF. When these conditions are met, our 
nation gets the most intellectual and economic leverage from 
its research and education investments.
    The National Science Foundation is requesting 
$5,036,000,000 for FY 2003. That's $240 million more, or five 
percent more than the previous fiscal year. For the United 
States to stay at the leading edge of discovery and innovation, 
we cannot do less.
    One of the highlights of the budget is a second installment 
of $200 million for the national five-year $1 billion Math and 
Science Partnership Program. This program links local schools 
with colleges and universities to improve the pre-K-12 math and 
science education, to train teachers, and to create innovative 
ways to raise the performance of all students in schools.
    An investment of approximately $37 million will increase 
annual stipends for graduate students to $25,000 to attract 
more of the nation's most promising students to science and 
engineering through the graduate fellowships. The budget also 
includes funding for six priority areas, including $221 million 
for nanotechnology research, $286 million for information 
technology research, and $60 million as part of a new priority 
area in mathematical and statistical sciences research that 
will ultimately advance interdisciplinary science and 
engineering, as well. $185 million dollars is directed toward 
NSF's learning for the 21st century workforce, our priority 
area, including $20 million to fund three or four new multi-
disciplinary, multi-institutional Science of Learning Centers 
to enhance our understanding of how we learn, how the brain 
stores information, and how we can best use new information 
technology to promote learning.
    We are also requesting $10 million to seed a new priority 
area in the social, behavioral, and economic sciences to 
explore the complex interactions between new technology and 
society so that we can better anticipate and prepare for their 
consequences.
    The budget requests $79 million for research on bio-
complexity in the environment. This builds on past investments 
to study the remarkable and dynamic web of interrelationships 
that arise when living things, at all levels, interact with 
their environment.
    And research in two new areas this year, very important, 
microbial genome sequencing and the ecology of infectious 
diseases. They will help develop strategies to assess and 
manage risks of infectious diseases, invasive species, and 
biological weapons.
    I should add that, as part of the Administration's new 
multi-agency climate change research initiative, we will 
implement a $15 million research program to advance 
understanding in highly focused areas of climate science to 
reduce uncertainty and to facilitate policy decisions.
    The budget also includes $76 million for programs later to 
be transferred to NSF from NOAA, EPA, and the USGS. In large 
facilities, we will continue support for the next phase of the 
construction of the Atacama large-millimeter array, ALMA. The 
new construction projects in the FY 2003 budget include two 
prototype sites of the National Ecological Observatory Network, 
NEON, which will have a cost of $12 million, to analyze data to 
detect abrupt changes or long-term trends in the environment. 
The budget also requests $35 million for EarthScope to detect 
and investigate earthquakes, volcanic eruptions, and landslides 
on the North American continent.
    The events following September 11 demonstrated our capacity 
to engage the research community in ways that are immediately 
responsive to national needs, and we owe this flexibility to a 
highly trained scientific and engineering workforce that's 
capable of selecting the most challenging problems for their 
research. It is this flexibility enabled by the merit review 
system that makes ours a model of scientific support that is 
the envy of the world.
    Mr. Chairman, if there are no objections, I would like to 
include, as part of my testimony, a Web site where the NSF 
budget summary can be found. And I'll be very pleased to 
respond to any questions.
    Web site address for NSF FY 2003 Budget Summary, 
www.nsf.gov/bfa/bud/fy2003/overview.htm
    [The prepared statement of Dr. Colwell follows:]

Prepared Statement of Hon. Rita R. Colwell, Director, National Science 
                               Foundation

    Chairman Wyden, Senator Allen, and Members of the Subcommittee, 
thank you for providing this opportunity to discuss the President's 
budget request for the National Science Foundation.
    America's present and future strength, prosperity and global 
preeminence depend directly on fundamental research. Every year, the 
Foundation's optimal use of limited public funds has relied on two 
conditions--number one, ensuring that our research and education 
investments are aimed--and continuously re-aimed--at the frontiers of 
understanding. And number two, certifying that virtually every dollar 
goes to competitive merit-reviewed, and time-limited awards with clear 
criteria for success. NSF puts the greatest share of its resources 
where they will do the most good: in the nation's colleges and 
universities where, in addition to generating the truly new ideas that 
define the future, every dollar invested contributes to recruiting and 
training the next generation of researchers.
    NSF has been proactive in implementing the President's Management 
Agenda, and we welcome--and apply--input from many sources to 
continuously improve the way we manage programs at NSF.
    When these conditions are met, our nation gets the most 
intellectual and economic leverage from its research and education 
investments.
    The National Science Foundation is requesting $5.036 billion for 
FY2003, $240 million or five percent more than the previous fiscal 
year. For the United States to stay on the leading edge of discovery 
and innovation, we cannot do less.
    Before providing a few highlights of the budget, let me stress that 
the priority setting process at NSF results from continual consultation 
with the research community. New programs are added or enhanced only 
after seeking the combined expertise and experience of the science and 
engineering community, the Director and Deputy, and the National 
Science Board.
    Programs are initiated or enlarged based on considerations of their 
intellectual merit, broader impacts of the research, the importance to 
science and engineering, balance across fields and disciplines, and 
synergy with research in other agencies and nations. NSF coordinates 
its research with our sister research agencies both informally--by 
program officers being actively informed of other agencies' programs--
and formally, through interagency agreements that spell out the various 
agency roles in research activities. Moreover, through our Committee of 
Visitors process there is continuous evaluation and feedback of 
information about how NSF programs are performing.
    One of the highlights of the budget is a second installment of $200 
million for the national five-year, $1 billion Math and Science 
Partnership Program. The program links local schools with colleges and 
universities to improve pre-K-12 math and science education, train 
teachers, and create innovative ways to raise the performance of all 
students and schools.
    An investment of approximately $37 million will increase annual 
stipends for graduate fellows to $25,000 to attract more of the 
nation's most promising students to science and engineering.
    The budget also includes funding for six priority areas, including 
$221 million for nanotechnology research, $286 million for information 
technology research, and $60 million as part of a new priority area in 
mathematical and statistical sciences research that will ultimately 
advance interdisciplinary science and engineering. $185 million is 
directed toward NSF's Learning for the 21st Century Workforce priority 
area--including $20 million to fund three to four new multi-
disciplinary, multi-institutional Science of Learning Centers to 
enhance our understanding of how we learn, how the brain stores 
information, and how we can best use new information technology to 
promote learning.
    We are also requesting $10 million to seed a new priority area in 
the social, behavioral, and economic sciences to explore the complex 
interactions between new technology and society so that we can better 
anticipate and prepare for their consequences.
    The budget requests $79 million for research on biocomplexity in 
the environment. This builds upon past investments to study the 
remarkable and dynamic web of interrelationships that arise when living 
things at all levels interact with their environment. Research in two 
new areas this year--microbial genome sequencing and ecology of 
infectious diseases--will help develop strategies to assess and manage 
the risks of infectious diseases, invasive species, and biological 
weapons.
    I should add that as part of the Administration's new multi-agency 
Climate Change Research Initiative, we will implement a $15 million 
research program to advance understanding in highly focused areas of 
climate science, to reduce uncertainty and facilitate policy decisions. 
Our budget also includes $76 million for programs slated to be 
transferred to NSF from NOAA, EPA, and the USGS.
    Although we did not seek these transfers, we take considerable 
pride in the fact that of the 26 Federal agencies judged by OMB in five 
key management areas, only the National Science Foundation received a 
green light. NSF is noted for its expertise and success in funding 
competitive research, and this was certainly a factor in this 
recognition. Sea Grant, which originated at NSF, is a valuable program; 
and should Congress and the Administration agree to such a shift, we 
would, of course, do our best to make it even more effective.
    In large facilities, we will continue support for the next phase of 
construction of the Atacama Large Millimeter Array (ALMA). New 
construction projects in the FY2003 budget include two prototype sites 
of the National Ecological Observatory Network (NEON) at a cost of $12 
million to analyze data to detect abrupt changes or long-term trends in 
the environment. The budget also requests $35 million for EarthScope to 
detect and investigate earthquakes, volcanic eruptions, and landslides 
on the North American continent.
    The events following September 11 demonstrated our capacity to 
engage the research community in ways that are immediately responsive 
to national needs. We owe this flexibility to a highly trained 
scientific and engineering workforce capable of selecting the most 
interesting and challenging problems for their research. It is this 
flexibility, enabled by the merit review system, that makes ours a 
model of scientific support that is the envy of the world.
     Mr. Chairman, I would be pleased to respond to any questions that 
the Committee may have.

    Senator Wyden. Okay, thank you, Dr. Colwell and thank you 
both. Both of you have cooperated very closely with this 
Subcommittee, and we appreciate it.
    Let me begin with you, Dr. Marburger. You know of my 
admiration for you and your work, and let me start with a few 
questions that I am really concerned about.
    I think that when you look at the research budget in the 
Administration's proposal, despite your good work and your good 
efforts, it really lacks balance. It doesn't have the kind of 
across-the-board commitments that we're going to need to do 
what this country is counting on in the research area. And let 
me be specific about it.
    As I look at the research budget, basically all of the 
increase requested for fiscal year 2003 is accounted for by NIH 
and DOD, and I think we need a much more balanced portfolio and 
we need increases in other key kinds of areas. Now, I know 
you're just one person battling for this, and I sort of feel 
badly about putting you on the spot here, but what can we do, 
working on a bipartisan basis, to get a more balanced portfolio 
and get these increases that are so important to the well being 
of the country?
    Dr. Marburger. Well, first of all, Senator, I think that we 
should be careful not to assume that the President is not also 
concerned about balance. But this is an Administration that 
tries to establish priorities and make funding choices that are 
sometimes difficult. The President has asked for a lot of money 
for a very important area of science in which there are 
significant opportunities for discovery, and that's in medical 
research and the life sciences.
    I would like to point out that, although some feel that 
there's a lack of recognition that life sciences depend on 
physical science support, the National Institutes of Health do 
pay for approximately 15 percent of the physical science 
budget. NSF supports about 12 percent of the physical sciences 
budget. The Department of Energy owns about 38 percent; NASA, 
22 percent.
    So the situation with respect to the sources of funding and 
the balance issue is actually rather complicated, and I do 
believe that it's important to have management mechanisms in 
place that give us detailed recommendations about how money 
should be directed.
    Within the President's budget proposal, choices have been 
made. The life sciences do get a big increase, but other areas 
get increases which are not negligible.
    Now, I hesitate to offer numbers that are different from 
the ones that you mentioned in your opening statement, but my 
understanding is that the increase to the National Science 
Foundation, including the transfers to which--you've objected 
to some of them--is five percent. And if you exclude the 
transfers, it's 3.4 percent.
    Now, if you remove from the science budget the amount for 
the increase for NIH and the very substantial and admittedly 
largely development-oriented increases for the Department of 
Defense, what's left is two percent for the remaining parts of 
the science budget. So a 3.4 percent increase for the National 
Science Foundation does represent something substantially above 
what might be expected to be available for this budget.
    Within that 3.4 percent increase, further priorities have 
been established. I mentioned nanotechnology, which gets a 17 
percent increase, the mathematics and statistics category that 
Dr. Colwell just mentioned is doubled, and there are other 
similar priorities that have been identified and addressed.
    And I also, in my statement, suggested that the priorities 
expressed in this budget are overall priorities for the nation. 
It's important for us to keep in mind that the large increase 
for the National Institutes of Health includes approximately 
half or more than half that would go to address issues in bio-
terrorism.
    So there is a great deal of concern about the balance 
issue, but there is also a desire to establish well-defined 
priorities and to make hard decisions and fund them. I do 
expect that the balance issue will continue to be addressed by 
this Administration in subsequent years, and I pray that the 
economy and the war against terrorism both will go well, and 
we'll be able to afford to do everything that we would like to 
do.
    Thank you.
    Senator Wyden. I think those are fair points, and I don't 
want to belabor this, especially with someone I admire. I think 
my concern, and I think the concern in the scientific 
community, is, even the 3.4--apparently that is an overall 
increase, not just in the research area. And even if you were 
to take the 3.4, you're basically talking about cost of living. 
And, again, this is a discussion--you're the last person I want 
to have this with, because you have been so cooperative in 
working with us, and I have great admiration for the work 
you're doing. I think we ought to just, as Senator Allen has 
tried to do, work to try to get the most balanced portfolio 
that we possibly can, because we've got a lot of work to do.
    And I want to ask only one other one on this round, and 
then I'm going to recognize my colleague and come back in a 
minute.
    I think, Dr. Marburger, that we have what amounts to a 
crisis in terms of science and math education. I mean, you see 
it by way of so many measures. The National Science Board, for 
example, recently reported that in cross-national comparisons 
of math and science achievement, U.S. high school students 
continue to fall below international averages. We have an aging 
workforce, in terms of those that are equipped with science and 
engineering. This is really a defining moment, it seems to me, 
in our country's history with respect to science and math, and 
I think I would like to get a sense of what your long-term 
strategy is with respect to science, math, and engineering 
education, because I think these are national security 
questions. Just as sure as the night follows the day, if we 
don't make investments in programs that work here, this really 
puts at risk this country's national security. And why don't 
you give me your thoughts on what our long-term policy in this 
area ought to be?
    Dr. Marburger. I would love to, Mr. Chairman. My thoughts 
are very similar to yours. I think this is an extremely 
important area and problem for this country. The President, as 
you know, has spoken frequently--almost every other time I see 
him on television, he's in a classroom and urging the 
importance of education for the strength and future strength of 
our nation.
    I believe that investments that are being made in, for 
example, the math and science partnerships and other programs 
through the National Science Foundation, are wise investments 
and are very interesting in that they try to bring some of the 
finest minds that we have in our excellent research 
universities and other universities elsewhere into the K-12 
experience, working in cooperation with school districts, 
trying to enrich the science and math experience that young 
people have and bring them into contact with people who are 
actually doing research, because there is nothing more exciting 
than to be in personal touch with someone who loves their work 
and simply exhibits the joy as well as the rewards of discovery 
in science and engineering.
    So this is an area where ideas are welcome. We need to 
invest more heavily in research on the best teaching methods. 
We need to understand exactly what's happening in the classroom 
so that we can improve on practice. And I believe this 
Administration is prepared to make the investments that are 
necessary for these improvements.
    Senator Wyden. I'll have some additional questions in a 
moment.
    Senator Allen?
    Senator Allen. Thank you, Mr. Chairman. First, thank you 
both for your statements. And there's going to be some slight 
differences in balances as the executive proposing legislative 
branch, getting their views on it. But I think, on balance, 
this is an outstanding and an unprecedented opening proposal 
from this Administration. I want to commend you all for your 
influence and that of the President, as well, on recognizing 
the importance of research and funding that research.
    I'd like to ask a few questions on some of the details, 
some larger questions. First, let me start with you, Dr. 
Marburger. In the 1990s, we learned about innovation and 
capital formation, intellectual property, licensing, speed-to-
market. According to one estimate, there's as much as $9 
trillion worth of ideas that are confined in universities, 
national labs, and corporations. Their originators are 
constrained, you hear from time to time, by bureaucracy, from 
dispersing these ideas and, thus, bolstering the economic and 
the social value of these innovations, many of them, patent-
able intellectual property ideas.
    I know you're a former national lab director. What changes 
to the existing policies and laws would you suggest to make our 
innovation system more efficient and free up some of these 
ideas and innovations?
    Dr. Marburger. Senator, that's a very big question, and I'd 
like to respond partially to that in writing so that you can--
--
    Senator Allen. Okay.
    Dr. Marburger.--get the full----
    Senator Allen. I'd love to have it in writing.
    Dr. Marburger. But I would say----
    Senator Allen. I can't take all the notes down.
    Dr. Marburger.--that under the President's Council of 
Advisors in Science and Technology, PCAST, which I co-chair 
with Floyd Kvamme, the President has asked us to make 
recommendations to him regarding strategies for improving the 
effectiveness of investments in federal research and 
development funds to universities.
    A subcommittee has been formed, chaired by President Wayne 
Clough, of Georgia Tech, whose first task is to look at 
technology transfer, and, in particular, some of the existing 
legislation that affects technology transfer in universities 
and from higher education. They're looking at the Bayh-Dole 
Act, and they're looking at practices of universities, how 
they're taking advantage, or not, of the Bayh-Dole Act, and 
other possible impediments to the technology transfer process. 
That report should be out in a few months, and I'm looking 
forward very much to getting the ideas of this sub-panel, and I 
would hope that we can all learn from the experience of the 
people on the panel.
    For my own part, I have witnessed a great deal of interest 
in the investment community and in the private sector in 
gaining access to this technology. There are, of course, many 
stories here that we can learn from. One important thing to 
note is that the larger industries, the IBMs and the Intels and 
the Monsantos and the pharmaceutical companies, understand 
better how to gain access to this technology, and they take 
advantage of it more. The smaller businesses have a harder time 
dealing with the regulations and the bureaucracy and red tape 
that has grown up over the intellectual property issues.
    So I think there is room for some improvements in the 
process. And I don't have any magic bullet or sweeping 
recommendations, but I believe that if we pay attention to 
this, we can discover ways to improve the system, and I would 
look forward to working with you to do that.
    Senator Allen. Thank you, Dr. Marburger. I didn't expect 
you to have all the answers right now, but it is important that 
we do work together on that. I've heard it from universities, 
as well, and certain things that can be improved.
    Let me get your views, Dr. Marburger, on something much 
more specific. In your written statement, you indicated that 
there's $2.9 billion allocated for aerospace technology at 
NASA. We had a hearing recently, within the last few weeks, on 
the NASA budget, and our analysis showed that imbedded in the 
aerospace-technology funding there is a ten-percent reduction 
in aeronautical research. Now, in aeronautical research, we 
have the same problems we're talking about, an aging workforce. 
We're worrying about airline and aircraft security. 
Aeronautical research is important there.
    Then another aspect I'd like you to comment on with this 
ten-percent reduction in aeronautical research is the fact that 
the European Union has declared they're going to take over the 
aviation market, and they've done a good job in it, in getting 
it from about 10 or 20 percent to now about 50 percent of the 
market. They've invested a great deal.
    Money is not the only answer, but we do need to have those 
funds to have those scientists, the engineers doing the 
research, to get to the next generation of aircraft as well as 
the technologies to improve the efficiency, the quietness, in 
some cases, and to expand, also, the capabilities of existing 
air space. What is your view on how this is going to help us 
become more competitive with a ten-percent reduction in 
aeronautical research?
    Dr. Marburger. Well, let me address the ten-percent 
reduction first, Senator. Funding for the federal science and 
technology at the Department of Transportation declines in this 
budget primarily within FAA relative to a supplemental funding 
increase of $50 million in 2002. Some R&D programs that have 
been at FAA will now be funded through the Transportation 
Security Administration. So we would want to look at the--at 
how this ten-percent relates to these changes in budgeting. And 
because, in fact, aviation research is important to this 
Administration, we do want our airline industry, our civil 
aviation industry, to be competitive. I spend a portion of my 
time meeting with representatives of this industry and on their 
issues, and we also staff and strongly support a special 
commission on commercial aviation that is chaired by former 
Congressman Walker. So this is a priority for us, and we are 
interested in making appropriate resources available to the 
industry and to agencies that support it.
    I would say that, with respect to European plans for 
dominating the civil aviation market by 2020, with a 
substantial increase in funding, we don't make our funding 
decisions for aeronautics research on the basis of overall 
levels of foreign spending in that field. Instead, decisions on 
different aeronautics research activities are based on merit, 
and they're designed to achieve key multi-year goals to improve 
the nation's air system.
    There's a lot more that we can say about that, because 
we've been working on this issue, and I would be willing to add 
more in written testimony. But I would just want to be careful 
about the numbers and to indicate that we do care about this, 
and we're trying to do it right.
    Senator Allen. Well, thank you, Dr. Marburger. NASA's not 
necessarily your budget, but this is an important research 
aspect. And let me say that I have yet to be convinced. I 
certainly have an open mind and want to be listening to it. 
Please also understand that I am competitive by nature, and I 
don't like losing, especially something as important as 
aviation, which is important for security, it's important for 
our commerce and our aviation and aeronautical leadership. It's 
absolutely essential for national security. But for our 
superiority in the air, if we had to fight this war on 
terrorism in Afghanistan, or, for that matter, even Operation 
Desert Storm, the way wars were fought previously, without 
technology, especially the air superiority, that means more men 
and women in uniform would have perished. And so it is 
important for our national security, not that I consider the 
Europeans to be anything but allies. I'm one good supporter of 
NATO and would like to expand it, as well, but that's another 
committee issue.
    But the point is, you don't just find people to get back up 
to speed in aeronautics. You have an aging workforce there, and 
if that funding drops, it's not something that you just have 
somebody come in and train them in a few months. It takes many, 
many years and disciplines and education. And I'm worried that 
we're going the wrong direction. I don't expect us to spend 
what the Europeans spend, but I don't think we ought to be 
reducing it. And a lot of the NASA focus is not--there's 
several A's in NASA. There's space, there's also aeronautics, 
and that cannot be ignored. That's another balance, but it's a 
balance in research.
    Let me ask Dr. Colwell a question that also bears out what 
was mentioned by Dr. Marburger. I'm certainly supportive of the 
nanotechnology initiative. I think that's very important, and 
I'm glad to see we're increasing funding in that cutting-edge 
research in that field of nanotechnology. However, as you know, 
we need to be careful not to neglect engineering, physics, and 
other core sciences. What can the National Science Foundation 
do to maintain the proper balance between these interests?
    Dr. Colwell. You touch on a very important and a very 
critical issue, the decline in numbers of students getting 
degrees in engineering and the disturbing data that show that 
as many as 45 percent of the graduate degrees in engineering 
are going to foreign students. In the past, we could anticipate 
that they would all stay in this country. We cannot anticipate 
that any longer. Many are being recruited, as Dr. Marburger and 
I noted, on a visit to China recently, that the Chinese are 
actively recruiting the many students who are currently in the 
United States, both Chinese-American citizens, but also Chinese 
students who are on student visas.
    Thus it is critical that we address the physics, math, 
engineering areas. Mathematics is one area that we are 
definitely addressing. We've doubled the budget for 
mathematics. Over the last four years, the budget has gone from 
$90 million to $182 million dollars for mathematics, and that 
still needs to be further increased, in out years, because 
mathematics cuts across every single discipline.
    We will address physics and engineering needs in future 
budgets. Right now, it's level for chemistry. But if you take 
into account the instrumentation that's provided for physics 
and astronomy research, it does represent a very large increase 
for mathematical and physical sciences. We are very pleased to 
be funding ALMA and to continue funding the Large Hadron 
collider.
    To put it in proper perspective, another kind of balance 
has to be addressed, Senator, and that's people, ideas, and the 
tools to work with. We're desperately trying to achieve that 
kind of balancing for these very critical needs.
    Senator Allen. Thank you, Dr. Colwell. No further 
questions.
    Senator Wyden. I thank my colleague. And just a couple 
more, and then we'll excuse you. You all have been very 
patient.
    To pick up on this question of additional funding, there's 
going to be a big push, Dr. Colwell, in terms of doubling the 
funding for your agency. Give me a sense of how you would 
distribute money, in terms of the priority that you would fund 
first, what you fund second, and then take it all the way up to 
the Valhalla of having funding doubled.
    Dr. Colwell. Let me say that we can always use additional 
funds for science and engineering. I'm a scientist, and I 
couldn't say anything except that.
    The core areas of funding are very important and would be a 
very top priority. When I became NSF Director, in my very first 
speech, I said that my biggest challenge would be to address 
the opportunities in interdisciplinary research, but, at the 
same time, to maintain the strengths of the disciplines, 
because without strong disciplines, you don't have good 
interdisciplinary research. They go hand in hand. The 
disciplines really need to be addressed.
    I'm very concerned about maintaining leadership in 
information technology and certainly in nanotechnology. I've 
just returned from Japan at a meeting of the G-8 nations of 
Heads of Science Councils, and learned that Japan, alone, is 
investing $900 million in nanotechnology. This is an area that 
really portends the future. We have to be the leaders and 
maintain leadership.
    Biocomplexity--we've got to understand the workings of the 
environment. We've got to have scientific principles applied to 
environmental research. Biocomplexity of the environment is 
understanding how organisms in the physical environment 
interact and how all components of the earth system comprise a 
``living system,'' if you will. We are very pleased that we 
have in the budget, in the climate initiative, funds to address 
risk and also funds to address carbon cycling, one of the 
unanswered questions that needs to be pursued. Putting science 
into understanding the environment is critical.
    The workforce is a major issue. We are doing all we can to 
address this, bringing interest in science to children. The 
pre-K-12 program, graduate students working with teachers in 
the elementary, middle, and high schools. The program is 
working very well. It brings the content of science and 
engineering, but also the excitement, and it brings a big-
sister/big-brother approach--not big brother in the political 
sense, but in the familial sense--to children so that they 
relate to someone closer to them in age, to share the 
excitement of science. For example, a seven-year-old will learn 
that an engineer does work other than drive trains.
    We're working on building Science of Learning Centers, to 
study the science of teaching and learning, to enhance 
teaching. Forty percent of our science teachers have not 
majored in science. We've got a lot of work to do. The National 
Science Foundation is working hard.
    My vision for the Science Foundation is that it will 
continue to be the very best science agency in the world, 
because we do know--and I have met with overseas visitors to 
NSF who are converting their approach to science and 
engineering to that of merit review as done at NSF. They are 
incorporating the merit review process we use.
    Obviously, I could go on for a long time, because you've 
asked me about a subject I care deeply about. There are 
priorities we are addressing and that we will continue to 
address.
    Senator Wyden. Dr. Colwell, as you know, the Inspector 
General issued a fairly critical report on the major research 
equipment account, and I think we've got to get your response 
on the record to that.
    Dr. Colwell. Yes. I would have to say that I've always 
dealt openly with Congress. We strongly disagree with the 
examples that the IG cited in the report. We take exception 
with the assumption that costs of major research improvement 
can easily and readily be characterized or allocated in only 
one permissible manner.
    Let me assure you there have been no misapplication of 
funds. We are developing a comprehensive response that we will 
send to this Subcommittee by June 15th. And once all the facts 
are on the table, I'm confident you will be satisfied. There is 
no reason to doubt NSF's longstanding reputation for integrity.
    We are able to stay within our authorized funding limits. 
The statement by the IG is inaccurate and incorrect. No matter 
what definition of ``full cost accounting'' is used to evaluate 
our facilities, we can provide the total, complete cost of any 
project. Our methods are transparent. There are no hidden 
costs, no misapplication of funds. We have always consulted 
with the National Science Board and the Congress about any 
questions that have arisen in the course of constructing major 
scientific facilities.
    It's important to remember that it's inherently difficult 
to develop standardized definitions and plans for facilities 
whose purpose is to redefine the state of the art. But I will 
say that improvement at NSF is always possible, and it's 
desirable. Although we disagree with the IG's examples, 
nonetheless, we are in agreement with the general direction of 
the reports' recommendations.
    But keep in mind a number of points. The major research 
facility guidelines have evolved over time since the account 
was first created in 1994. We have built hundreds of millions 
of dollars worth of world-class scientific facilities, and 
we've always tried to learn from those experiences and then 
apply the best practices.
    We are now proceeding to update our procedures for 
facilities oversight to meet the future demands for the 
increasingly complex projects, and we look forward to sharing 
our ideas with you in how we can administer the construction, 
the operation, and management of NSF's large facilities.
    Finally, let me underline this. We pledge our very best 
efforts to work cooperatively and openly with the IG. I'm fully 
confident that we can resolve those differences, and we'd 
welcome the guidance and help of Congress in that effort on how 
best to interpret certain ambiguous technical issues. Then all 
of us can more profitably focus our full efforts on the future.
    Senator Wyden. One gets the sense that you anticipated that 
question.
    Senator Wyden. And, on a serious note, I think it's clear 
that this is important, because those of us who do want to 
increase your funding, it chips away at our credibility if 
we've got the IG talking about full cost accounting and various 
other arcane kind of things. So I appreciate your going after 
it and giving to Senator Allen and myself that answer by middle 
of next month would be great.
    One last question, and then we'll excuse you, and you all 
have been very patient.
    Dr. Marburger, probably more than anything else in the 
technology areas as it relates to homeland security, I want to 
make sure that for the businesses and the entrepreneurs and the 
scientists in this country who have a promising idea, that 
they've got one contact point in the federal government. And as 
you know, in the NetGuard proposal, most of the attention has 
largely focused on mobilizing the scientists and the 
entrepreneurs and making sure that when Intel or Microsoft 
sends significant equipment and personnel to a disaster site, 
that those resources are used well. But the part of that bill 
that I think is also going to make a huge difference is the 
center, the one-stop shopping, so to speak, for making sure 
that entrepreneurs can get these technologies evaluated.
    Tell me a little bit how you see that working with the 
group that's in place now, the Technical Support Working Group. 
As you know, we talked a lot about that as were drafting the 
bill--your folks and Senator Allen's and mine. I think we've 
got a good fit, you know, now and something that builds on what 
the Administration is doing. But because this is an area I do 
feel strongly about, I just do not want to see entrepreneurs 
spending time and money traipsing all over the federal 
government and going through these bureaucratic, you know, 
horror stories that have been told to us when they've got 
promising ideas. And I think we've got it right now, but I'd 
like to close this panel by having you give us your assessment 
on that point.
    Dr. Marburger. Good. Mr. Chairman, as you know, we've 
learned something from your own ideas about this. Shortly after 
the events of 9/11, every agency analyzed their capabilities 
for immediate homeland response, and many started programs. 
National Science Foundation funded some important projects 
within weeks--with days, perhaps--of the attacks, and these 
were very valuable. But one, in particular, impressed us, 
impressed the people in my office that had experience with 
this, and this was the Technical Support Working Group that 
you've alluded to that was jointly chaired by the Department of 
State and the Department of Defense. They had a procurement and 
a review process that seemed to us to work quite well and would 
now be an important part of a one-stop shopping concept.
    There's currently a proposal circulating within our office 
and the Office of Homeland Security that would handle this. 
Broadly defined, one of the elements of the proposal is the 
establishment of a central web site that would contain agency 
information, links to agency solicitations and points of 
contacts, and instructions for submitting new ideas to an R&D 
clearinghouse. And this is your concept.
    We're also discussing the establishment of a central 
clearinghouse that might be managed by a group within the 
Department of Defense that already has an established system 
for reviewing such technical proposals, which is the Technical 
Support Working Group. And we would broaden the mission of that 
group. It would solicit, review and respond to unsolicited 
ideas across broad categories of homeland security, not just 
the ones that they're considering now.
    So there's a lot to say about this, but, in general, that 
working group would draw on expertise from agency 
representatives that would staff review teams--and many of 
these teams already exist within the Technical Support Working 
Group today--and they would work together to find the best home 
for good ideas so that a provider of service or someone with a 
good idea would not have to shop around. They would also ensure 
that there's not duplication of funding with other agency 
solicitations. Since it would deal only with unsolicited R&D 
ideas, this clearinghouse would not replace or duplicate any 
existing agency program's funding or responsibilities. It would 
simply provide a path for small businesses and entrepreneurs to 
get their homeland security ideas to the right people in the 
federal government and to make this process as straightforward 
as possible.
    I'm optimistic about this, because we have good models for 
this process in government today. It's just that we don't have 
the kinds of overarching guidelines and coordination that this 
new mechanism would provide. And I'm looking forward to seeing 
it go into action as soon as possible.
    Senator Wyden. Very good. I think we'll excuse you, unless 
Senator Allen wants to ask anything else, and we'll go to our 
next panel.
    Senator Allen. I just want to say the President's very 
fortunate to have people of your caliber leading him. Thank you 
for your passion and your expertise.
    Senator Wyden. Both of you have been very helpful as we've 
gone forward with our work. I'm looking forward, particularly, 
to having a signing ceremony on the cyber-security and NetGuard 
proposals. This will give us a chance to mobilize the science 
and technology sector at a time when we're mobilizing so many 
other Americans to fight terrorism, and you all have played a 
key role in helping us to get this far, and we're going to 
finish the job. We look forward to working with you, and we'll 
excuse you at this time.
    Dr. Colwell. Thank you very much.
    Dr. Marburger. Thank you.
    Senator Wyden. All right. Our next panel is Speaker 
Gingrich, with The Gingrich Group, in Atlanta, Georgia, Mr. 
John Podesta, visiting professor of law at Georgetown Law 
Center, Dr. Alan Leshner, Chief Executive Officer of the 
American Association for the Advancement of Science; Mr. Thomas 
McCoy, of Montana State University; and Dr. Marsha Torr of the 
Virginia Commonwealth University.
    Well, thank you all very much, and this is exciting to see 
this panel. And I think it's illustrative of the fact that you 
can have some debates in this town and some really ferocious 
discussions where the decibel level gets awfully high. But to 
see the Speaker and Mr. Podesta, for example, two of the most 
prominent political figures in this country--one a Republican, 
one a Democrat--unite behind these science questions is really 
a very encouraging development. We're going to make your 
prepared remarks a part of the record in their entirely.
    Mr. Speaker, why don't you begin, and then we'll go to you, 
Mr. Podesta.

 STATEMENT OF HON. NEWT GINGRICH, CHIEF EXECUTIVE OFFICER, THE 
                         GINGRICH GROUP

    Mr. Gingrich. Well, let me just, first of all, commend you, 
Chairman Wyden and Senator Allen, for holding this vital 
hearing and focusing on the right topic.
    As you know, the Hart-Rudman Commission on National 
Security to 2025, which President Clinton created, warned that 
our failure to invest in science and to reform math and science 
education was the second-biggest threat to our national 
security. It warned that only the threat of a weapon of mass 
destruction in an American city was a greater danger. In fact, 
the commission unanimously concluded that the danger from 
under-investing in math and science and failing to reform math 
and science education was greater than the danger from any 
conceivable conventional war in the next quarter century.
    This is compounded, because the explosion of knowledge in 
nanoscale science and technology and the quantum behaviors 
associated with that scale, from smaller than one atom to about 
400 atoms, represents a profound transformation in our 
understanding of the natural world. In fact, every member of 
Congress should follow this Subcommittee's leadership and take 
time to learn at least the basics of nanoscale activities and 
the potential of quantum behaviors, because they are as 
profound for the 21st century as the theory of relativity and 
the rise of nuclear physics was for the 20th century.
    These changes will be so profound that they will affect 
biology, chemistry, physics, and the basic building blocks of 
every aspect of life and civilization. Our approach to health, 
the environment, productivity, and national security will all 
be profoundly shaped by this emerging revolution and knowledge.
    The knowledge breakthroughs of the next 20 years will equal 
the entire 20th century. And this is not hyperbole. If you just 
take all the databases of who's at work, what's being invented, 
we will literally have at least the scale of breakthrough in 
the next 20 years that we got between 1900 and 2000. In other 
words, the rate of change is accelerating, and in the next two 
decades, it will be about five times as fast as the 20th 
century on a per-year basis. The rate will continue to 
accelerate, and we will match the 20th century again between 
2020 and 2035.
    Countries which fail to invest in basic science and math 
and which fail to insist on adequate math and science education 
will fall behind economically and in national security 
capabilities. The United States' lead today is a function of 
past investments and, frankly, of past immigration to the 
United States of brilliant, hardworking people.
    Our ability to lead in 2020 is a function of current 
decisions. There is no reason today to believe we will 
automatically maintain that lead. We graduate too many lawyers 
and too few scientists and engineers. We produce too few high 
school students capable of doing college math and science, and 
too few college graduates capable of doing graduate work in 
science and math and engineering. If the present trends 
continue, we will certainly be surpassed by China and India in 
the next generation, and we might be passed by Europe and 
Japan.
    To meet this challenge, the National Science Foundation 
should be increased to a $15 billion a year budget. That is 
not--it does not have as big a base as NIH. And while I 
actively and strongly supporting doubling NIH, I think it's 
misnomer to assume the same scale of growth, because the 
National Science Foundation started out much smaller. At $15 
billion a year, it would still only be 60 percent the size of 
NIH.
    It is clear from last year's testimony that the National 
Science Foundation could invest $11 billion a year within 
current constraints based on current proposals. It is equally 
clear that instrumentation, education, and research projects 
could absorb a $15 billion a year level productively.
    The National Nanotechnology Initiative should immediately 
be expanded to at least a billion-one-hundred-million dollars 
in the coming year, and should grow at a 15 to 20 percent a 
year rate after that. The National Institutes of Health should 
be instructed to invest a minimum of three percent of their 
research efforts into nanoscale activities.
    Finally, Chairman Wyden was exactly right in referring to 
crisis in math, science, and engineering education. I would 
argue that it is as big a crisis as the terrorist threat, but 
it's a longer-term, more invisible crisis. But it has very 
profound threats for us. The math and science educational 
efforts at K-12 and in undergraduate collegiate education have 
to be thoroughly overhauled with a focus on results rather than 
intentions. And by that I mean if we're not producing enough 
kids that are doing calculus, we've got to keep reforming until 
we're producing enough people who can do calculus, physics, 
chemistry, biology, et cetera.
    Reforming education in this area is a matter of national 
security priority, and if we fail at it, we should expect to 
decline as a power and to fall behind other countries within a 
generation.
    And I very much appreciate your holding this hearing.
    Senator Wyden. Mr. Speaker, thank you for coming. And there 
are a lot of demands on your time, but the fact that you're 
willing to be here to speak out on these issues makes a real 
difference, and I'm very appreciative of your doing it.
    Mr. Gingrich. Mr. Chairman, may I make one last comment----
    Senator Wyden. Absolutely.
    Mr. Gingrich.--which is not quite on the topic? But just 
let me say I think the Congress ought to contract with the 
National Academy of Sciences on a paid basis, rather than 
recreate the Office of Technology Assessment. And I think you'd 
be much better served in the long run to get sophisticated 
scientific advice on a regular basis, coordinate by the 
National Academy of Sciences, but produced on a contract basis 
with the Congress paying for it, not just taken out of the 
hides of volunteer scientists, but recognizing that if we could 
bring scientists directly into contact with members of 
Congress, we're going to get a far higher level of dialogue 
than if we create another organizations where staffs do 
analysis for us, and we end up with papers published by people 
who have masters degrees, rather than meeting routinely with 
Nobel Prize winners.
    Senator Wyden. It may be too logical for us to pursue.
    [Laughter.]
    Senator Wyden. But, I mean, the bottom line that you're 
talking about--and I had not heard about that idea--is to make 
sure that at every possible opportunity you have members of 
Congress directly interacting with scientists, and that is 
clearly a winning proposition, and I'll want to follow up on 
that.
    Mr. Podesta, we're very pleased that you could come. And 
after all your years in the political trenches, I suspect a lot 
of Americans aren't aware of all the time you have spent 
championing these issues, and particularly scientific policy. 
And thank you very much for coming, as well. And I'm so pleased 
to be able to have this freeze-frame of you and the Speaker 
sitting side by side, because this is what it's going to take 
to get it done. And please proceed.

   STATEMENT OF JOHN D. PODESTA, VISITING PROFESSOR OF LAW, 
                GEORGETOWN UNIVERSITY LAW CENTER

    Mr. Podesta. Well, thank you, Mr. Chairman and Senator 
Allen. I want to--it's a pleasure to be before the Committee to 
discuss the vital mission of expanding and strengthening the 
federal government's investment in scientific discovery. And I 
want to particularly thank you for letting me be to the 
Speaker's right in this panel.
    [Laughter.]
    Senator Wyden. I was noticing that.
    Mr. Podesta. That may be a real first.
    [Laughter.]
    Mr. Podesta. As you noted, while I was up here working on 
the Senate staff, and then throughout my career in the Clinton 
White House, especially as Chief of Staff, I had the privilege 
of being deeply involved in development of budget and policy 
priorities in this area. And today, as the nation is focusing 
on fighting the war on terrorism and strengthening our homeland 
security, it's important to consider how our scientific 
research enterprise can not only help fulfill those missions, 
and that mission, that vital mission, but to secure the 
blessing of liberty and improve the quality of life for all 
Americans.
    A lot has been said here. I'm going to try to be brief. I'm 
not going to repeat what the scientific investments have 
already done, indeed, for improvements of health, for the 
environment, for economic growth, as Senator Allen pointed out, 
the vast and dramatic increase in productivity that was the 
result of the ingenuity of the private sector in America but, I 
think, was directly, also, the result of important investments 
that we made in the 1960s and 1970s and 1980s in these areas.
    But it's also important, I think, to reflect on the fact 
that, in addition to all these areas we see at home, it has a 
direct and tangible impact on how we fight the war. Today, a 
commander in Tampa can look at a video screen and fire a 
Hellfire missile from a Predator flying low behind the enemy 
lines, and that's the direct result of the science and 
technology investments that we've made.
    I provided the Committee with a lengthy written statement. 
Let me just cover the five points that I pointed the Committee 
to.
    I believe that we ought to double the NSF budget. It's 
clear that that's a goal that we can and should set, that it 
does provide the kind of balance that both of you were talking 
about earlier. The Speaker has suggested an even more 
aggressive funding stream for the NSF. But clearly, I think, 
the fact that the Administration and the Congress made the 
commitment to double the NIH budget has kept us on track, and I 
commend the Bush Administration for staying on track to double 
the NIH budget, but we need that kind of commitment on NSF, as 
well. I further would like to commend the Bush Administration 
for an overall top line that I think is quite substantial and 
quite good.
    But there are places I think that we can improve. NSF is 
one. The other that I--as I point out in my testimony is I 
really think we're missing the boat on energy security. We've 
just been through a major debate in the Senate and last summer 
in the House on an energy bill. If you look at the trend on 
climate change--and I think Dr. Colwell spoke about the--where 
we are and the variety of opinions on climate change--it's 
clear, even at the low end, we're looking at a climate increase 
of--a temperature increase of--at the very lowest end of 
prediction, of about 2.5 degrees over the next hundred years. 
If you compared that to less than a degree over the past 
thousand years, we've--that has profound national security 
implications with regard to clean water and agricultural 
production and really the production of what you might call 
``environmental refugees,'' people coming from Bangladesh, from 
Indonesia, from the Middle East, et cetera. We ought to be 
investing much more substantially in that area than I think is 
included in the Bush budget.
    Something that might get me in a little bit of trouble up 
here, I would urge you--and I think this Committee has a really 
important role to play--to follow the Bush Administration's 
lead and resist the temptation to earmark research and 
development funding on these peer-reviewed projects. Again, as 
Dr. Colwell pointed out, all around the world people are 
looking and modeling their research portfolios against our NSF 
because it's peer-reviewed, because it gives the best results. 
And I know I'll get in trouble a little bit with our 
appropriators friends, but I think that you have an important 
mission to make sure that the NSF, as it has in the past, stays 
beyond that. You have a role to play in setting priorities, but 
these project-by-project earmarks can really eat up the budget.
    I propose that you actually recreate the Office of 
Technology Assessment. It was de-funded in 1995 as part of the 
budget-balancing efforts that the Congress participated in. 
Against a budget of $112 billion, it seems to me you could find 
$20 or $30 million. If this contract research proposal is a 
better approach to keep you in contact with the top scientists 
of the country, I think that's--I'm open to thinking about 
that. But clearly the Congress needs that kind of advice, and I 
think that some mechanism for providing it is really critical.
    And then, finally, let me say that I think this Committee 
also has an important role to play in supporting scientific 
freedom and openness. I think we have seen an Administration 
that has a strong policy preference for tilting the balance to 
some extent in favor of secrecy. We're in the danger, I think, 
of creating a new culture of secrecy. It's bound to influence 
the direction of discovery, the efficient advancement of 
scientific knowledge, and the public's opportunity to assess 
the costs that come from a science program unchecked by public 
scrutiny.
    I think we've always got to be mindful that there are 
secrets worth protecting. I saw that every day in the White 
House. But I think that overall, the progress of scientific 
openness is a better security paradigm than one of secrecy. So 
I see my yellow light on. So, with that, let me stop and turn 
it over to the other panelists.
    [The prepared statement of Mr. Podesta follows:]

   Prepared Statement of John D. Podesta, Visiting Professor of Law, 
                    Georgetown University Law Center

    It is a pleasure to appear before the Committee to discuss the 
vital mission of expanding and strengthening the Federal Government's 
investment in scientific discovery. Throughout my service in the 
Clinton Administration, especially as White House Chief of Staff, I had 
the privilege of being deeply involved in the development of budget and 
policy priorities in this area.
    Today as the nation is focused on fighting a war on terrorism and 
strengthening our homeland security, it is important to consider how 
our scientific research enterprise can not only help fulfill that 
mission but secure the blessing of liberty and improve the quality of 
life for all Americans.
    Science has been on the frontlines and in the trenches of every 
campaign to protect America's freedom. Today's war against terrorism is 
no different. Watching the footage from Afghanistan, we realize that 
this war has not only been fought by American soldiers with guns in the 
caves of Tora Bora, but also by scientists in labs on American soil. We 
now live in a world where a commander in Tampa, Florida, watching a 
video screen, can unleash the fury of a Hellfire missile from an 
unmanned Predator flying low over enemy lines.
    The events and consequences of September 11th have forced us to re-
examine nearly every facet of American life. Our nation must 
revolutionize the way we approach national security, from bioterrorism 
to military readiness, to electronic surveillance and communication's 
security. In his September 20th address before a joint session of 
Congress, the President stated, ``Americans are asking: How will we 
fight and win this war? We will direct every resource at our command--
every tool of intelligence . . . every necessary weapon of war--to the 
disruption and to the defeat of the global terror network.'' By framing 
technological innovation in the context of national survival, the 
President has profoundly affected the scope and the rules by which the 
pace of scientific inquiry will be conducted in the United States.
    This is not the first time a President has called on the scientific 
community to meet the country's strategic goals. Forty years ago, in 
the midst of another national security crisis--the Cold War--another 
President posed the same challenge. On September 12, 1962, President 
John F. Kennedy declared, ``We meet in an hour of change and challenge, 
in a decade of hope and fear, in an age of both knowledge and ignorance 
. . . We choose to go the moon in this decade and do the other things, 
not because they are easy but because they are hard . . . because that 
challenge is one . . . we are unwilling to postpone, and one which we 
intend to win.'' Within a few years, America's scientists and engineers 
had risen to meet that challenge, and our nation won the race to the 
moon.
    Kennedy's victory was part of a great American tradition of 
expanding the frontiers of innovation. More than a hundred and fifty 
years before Kennedy put a man on the moon, President Thomas Jefferson 
worked to put a man out West. At his behest, Lewis and Clark set out on 
a voyage of discovery--a mission planned out on the tables of the East 
Room in the White House. There, Jefferson and Lewis charted the journey 
that would not only map the contours of our continent, but expand 
forever the frontiers of our national imagination. They were the 
forbearers of those who have given us the Mars expedition, an 
international space station, and a map of the human genome.
    From the great frontier to the new frontier, all these discoveries 
have had a common dominator: the drive, determination and dollars of 
the federal government. Without Jefferson's encouragement and Kennedy's 
imagination, America would be a lesser nation. For generations, our 
leaders have recognized that without government funding for scientific 
and technological advancement, America would never be a global pioneer 
in the labs and classrooms--and certainly not a world leader in health 
care, education, the environment, transportation, finance or national 
security.
    Many of the products and services we have come to depend on--from 
lasers to communication satellites to human insulin--are the direct 
result of policies designed to bolster science and technological 
advancement. Government dollars used for polio eradication, AIDS 
treatment, and the mapping of the human genome have helped Americans 
live longer, healthier lives. In the last century alone, the average 
life expectancy in the United States has increased by nearly 30 years--
from 47 to 76.
    In national security, federal dollars helped build the atomic bomb, 
stealth aircraft, and unmanned surveillance drones. In environmental 
science, thanks to federal investment, manufacturing processes that 
emit zero waste and fuel-cell cars that get the equivalent 80 miles per 
gallon are well within our reach. These advances have fueled our 
remarkable economic prosperity; since World War II, innovation has been 
responsible for nearly half of our national economic growth.
    While it is clear government funding has been critical for the 
advancement of science, there is considerable debate as to how 
government funds for scientific research should be allocated.
    President Clinton, from the first days of his campaign, viewed 
science--including biotechnology, information technology and physical 
sciences--as a core element of his economic policy. I served in an 
administration that believed that federal investment in technology and 
human capital would be the driving force behind an economic renewal. 
Vice-President Al Gore, who has been one of Congress's foremost experts 
in science policy, strengthened the Clinton Administration's and 
especially the White House's involvement in science policy.
    Before commenting on the Bush Administration's budget, it is worth 
noting five features of the Clinton-Gore approach to science policy.
    First, the Administration brought development of science policy 
firmly under the grip of the White House. President Clinton established 
the National Science and Technology Council (E.O. 12281, November 
1993), the first cabinet-level council charged with oversight of the 
federal investment in science and technology. The Council along with 
the OSTP/OMB annual interagency R&D budget guidance, which established 
interagency R&D priorities for each fiscal year, reinforced the 
decision to invest in science and technology even as other spending was 
cut to eliminate the budget deficit. The President increased R&D 
spending in each of his eight years in office and ended his second term 
with a request for $85 billion dollars in R&D spending.
    Second, recognizing the demand for greater accountability of 
scientific research to public officials and private citizens, Clinton 
took several steps to strengthen oversight of science policymaking. In 
1993, he established the President's Committee of Advisors on Science 
and Technology (E.O. 12882), an advisory board comprised of individuals 
from industry, education, research institutions, and other 
nongovernmental organizations. In 1995, the President established the 
National Bioethics Advisory Commission (E.O. 12975) to ensure the 
ethical conduct of human biological and behavioral research and to help 
the Administration address policy issues pertaining to cloning and stem 
cell research.
    Third, the President sought to connect government-funded research 
to broad, definable national goals. Examples include the Next 
Generation Internet initiative, a project designed to invest in R&D for 
new networking technologies at speeds that are 1,000 times faster than 
the then existing Internet; the Information Technology for the Twenty-
First Century (IT \2\) Initiative, a multi-agency initiative focused on 
fundamental research in software, development of information systems 
that ensure privacy and security of data; the National Nanotechnology 
Initiative to accelerate development and deployment of nanotechnology 
in areas such as materials and manufacturing, nanoelectronics, medicine 
and healthcare, environment, energy, chemicals, biotechnology, 
agriculture, information technology, and national security; a National 
Plant Genome Initiative (NPGI) that supports the sequencing of the 
genomes of model organisms, including Arabidopsis thaliana and an 
international effort to fully sequence the rice genome; and of course 
the Human Genome Project.
    Fourth, the Clinton Administration understood that an increasing 
share of the nation's R&D budget was coming from the private sector. 
The Administration sought to harness this private investment for public 
ends by establishing a series of public-private partnerships, 
formalizing coordination between corporations, universities and 
government. Examples included Partnership for a New Generation of 
Vehicles (PNGV), to produce the technology for lighter, more fuel-
efficient vehicles and the Partnership Advancing Technology in Housing, 
to spur the development and use of advanced technologies to radically 
improve the quality, energy efficiency, environmental performance and 
affordability of the nation's housing. The Clinton Administration also 
took steps to encourage direct private investment in research and 
development through patent reform, and R&D tax credit, and programs to 
bridge the digital divide.
    Finally, President Clinton recognized the critical importance of 
investment in the education of tomorrow's scientists. He significantly 
increased the funding for science and engineering programs and research 
at America's universities; the Department of Education and the 
Department of Defense, for example, earmarked millions for university 
research. Educating students is directly related to his larger 
objective of improving the basic scientific literacy of all citizens.
    The Bush Administration has built on the Clinton Administration's 
strong support for Federal R&D. Their FY 2003 Budget proposes an 
increase for Federal R&D of almost 9 percent or $8.9 billion over FY 
2002 levels, bringing R&D funding to a record $112 billion. Notably, 
the rate of increase for R&D would significantly exceed the overall 6.8 
percent increase proposed for overall discretionary spending. Increases 
would be targeted to defense, the war on terrorism and health and the 
commitment made by the Clinton Administration and the Congress to 
double NIH funding between 1998 and 2003 would be completed.
    President Bush also continued the President's Committee of Advisors 
on Science and Technology, albeit with a heavier focus on industry 
participants rather than leading University-based scientists, and 
reconstituted the National Bioethics Advisory Commission. His budget 
continues research initiatives on Nanotechnology and Networking, and 
Information Technology, and added a new initiative on Anti-terrorism 
R&D.
    The proposed funding increases for the FY 2003 budget for the DOD 
and NIH are laudable, especially in light of the transformative events 
of the past year. Those additional funds will aid the development of 
new technologies to fight the war on terrorism, help fend off future 
biological attacks and accelerate the process of discovering new 
treatments for cancer, AIDS and other illnesses.
    Nevertheless, the research and development funding in the FY 2003 
budget falls short of its potential. While the overall research and 
development budget has increased, these funds are directed almost 
exclusively into the NIH and the DOD. Excluding the NIH, non-defense 
research and development spending is reduced by 0.2%, with many 
critical programs facing far deeper cuts. By failing to provide 
adequate funding across scientific disciplines, the budget threatens 
many key priorities.
Double the NSF Budget
    First, the budget fails to adequately support the NSF and threatens 
the quality basic research conducted at colleges and universities. 
Discounting the funds allocated as the result of transferring three 
programs to the NSF from other agencies, the NSF budget is increased a 
mere 3.4%, barely keeping pace with inflation. The NSF is a model 
government agency. It performs its job funding university research and 
other educational programs with unrivaled efficiency. It is the only 
government agency to receive a ``green light'' in financial management 
from the GAO and the OMB. All other government agencies received either 
a yellow or red light. Moreover, the NSF is the only federal agency 
with responsibility for research and education in all major scientific 
disciplines. The basic research conducted with NSF funds is the 
foundation for all future R&D. A strong commitment to the NSF is 
essential to a broad-based commitment to research and development.
    The NSF's support for the science and technology research across 
all disciplines is crucial as the science becomes more complex and 
inter-related. For example, advances in medical care responsible for 
increasing American's life span could not have occurred without the 
underlying knowledge in the physical sciences. Magnetic resonance 
imaging, ultrasound, laser surgery, and artificial joints and valves, 
which today we take for granted, were only developed with support from 
physicist, chemists, mathematicians, computer scientists, and 
engineers. Also, it is impossible to predict where the next scientific 
discovery that will drive our Nation's economic growth or protect our 
national security will occur. For example, today's discoveries in the 
field of nanotechnology are being used in the automotive, apparel, and 
cosmetic industries in ways those industries could never have foreseen 
just a few years ago. Finally, we need to be concerned about training 
the right mix of scientists and engineers, and other scholars to meet 
our economic and national security needs of the next generation.
    The NSF has an extraordinary impact on American scientific 
discovery. Eight of the last 12 American Nobel Prize winners were 
supported by the NSF at some point in their careers. The NSF also plays 
a crucial role in supporting university-based research, funding roughly 
50 percent of all non-medical basic research at colleges and 
universities. The discoveries from these labs benefit us today and the 
scientists trained in them will benefit us into the future. I believe 
doubling the NSF's budget will strengthen our Nation's economy and 
security by providing support for advancements in science and 
technology research across all disciplines.
A Manhattan Project for Energy Security
    Second, the budget fails to address the nation's needs in creating 
energy security. Our dependence on fossil fuels is not only a serious 
environmental problem but also a critical national security problem.
    Today we are importing 52% of our oil, 25% from the Persian Gulf, 
16% from the Saudi Arabia alone. Imports are projected to rise to 64% 
by 2020. That figure would only be reduced to 62% if we did everything 
contained in the President's energy plan or the recently passed Senate 
Energy bill. Europe and Japan are even more dependent on Middle East 
oil. China is the fastest growing importer, which is important, if for 
no other reason than the proliferation problems that will be presented 
if China becomes dependent on oil from Iran and Iraq.
    Less well appreciated are the real national security concerns that 
will result from global warming pollution. The question is no longer 
will the atmosphere warm but by how much. Even at the lowest end of 
climate models that assume rapid cuts in emissions, scientists predict 
at least a 2.5 degree Fahrenheit increase in global temperature over 
the next century. Contrast that with the less than 1-degree increase 
over the last millennium, and you can begin to appreciate the scope of 
the problem. It is a problem that threatens the security of the world's 
fresh water supplies and the production of agricultural products around 
the world. It is a problem that could create an astronomical number of 
environmental refugees from the Middle East to Bangladesh and Indonesia 
to Central America. Despite these dangers, this Congress and this 
Administration do not seem likely to act forcefully to mandate 
reductions in CO2 emissions. Research and Development seems to be the 
one area where there is a possibility that Congress and the 
Administration could agree to take precautionary action to stave off 
the effects of global warming. The scope of the problem calls for an 
effort on the scale of the Manhattan Project--massive investments for 
research and development in new technologies that could reduce CO2 
emissions.
    Unfortunately, such funding is not present in the FY 2003 budget. 
The FY 2003 budget decreases funding for energy conservation by 10.9%. 
These programs have proven to be an extraordinarily effective way to 
reduce our energy consumption and, as a corollary, our dependence on 
foreign oil. A DOE study found that twenty of its energy efficiency and 
renewable energy technologies have already saved the nation 5.5 
quadrillion BTUs of energy over the last two decades, the equivalent to 
the amount of energy needed to heat every household in the U.S. for 
about a year. The cost to taxpayers for these 20 activities was $712 
million, less than 3 percent of the energy bill savings to date.
    Funding for renewable energy, while nominally increased over the 
previous year, has been shifted into the FreedomCar initiative, a 
laudable research program, but one that will take many years to yield 
results. Meanwhile, funding for the New Generation Vehicle program, 
which could enhance fuel efficiency immediately, has been eliminated. 
While wind-power research receives a small increase, research for 
biomass, geothermal and solar energy are all reduced by two to three 
percent. A budget with a broad based research commitment to energy 
conservation and alternative fuels would support a cleaner, healthier 
and more secure nation.
    Resist the Temptation to Earmark Research and Development Funding
    The Bush Administration has launched a major effort to reduce the 
amount of research and development funding that is earmarked to 
specific institutions. While that effort may not be popular on Capitol 
Hill, I want to go on record in support of the Bush Administration's 
position in this area. Research and development funding should be 
allocated through the peer-review system, which awards grants 
competitively. Earmarking funds politicizes scientific research and 
development. It creates an opportunity for institutions to be funded, 
outside the competitive process, not for the scientific merit of their 
proposals but for their connections to influential members of Congress. 
There are already many promising peer-reviewed proposals that are 
unable to be funded due to limited resources. Earmarking only creates 
further reductions in the amount of funding available for such higher-
priority projects. As budgets tighten, the temptation for Congress to 
earmark funds increases. Congress does have the right and 
responsibility to set priorities for Science agencies. But in order to 
ensure our nations receives the maxim benefit from federal research 
dollars, Congress should resist the temptation to earmark funding for 
specific projects.
    The NSF has traditionally been a safe haven from Congressional 
earmarking. It is essential that this remain the case. Universities and 
colleges should be focusing their energy on creating better research 
not lobbying the Congress for funds. Funding should be given to those 
institutions with the best proposals not the best connections.
Restore the Congressional Office of Technology Assessment
    As the pendulum shifts away from a system that emphasizes research 
that explores scientific possibilities to one focused on near term R&D 
needs (from cybersecurity to national missile defense, to new 
surveillance technologies, to vaccine research), we still don't have 
adequate metrics or oversight mechanisms that measure outcomes.
    We are good at measuring inputs (dollars requested, dollars 
appropriated to specific federal R&D accounts, doubling NIH funds); for 
the most part, we successfully measure outputs (DOD-ARPA/supported 
research that helped invent the Internet) and only rarely reflect on 
outcomes (11,000 additional cancer deaths per year as a result of above 
ground nuclear testing in the1950's and early 1960's).
    While many individuals, institutions and agencies have an interest 
in touting individual success stories, no body or oversight institution 
has a vested interest in reviewing and reporting to the public on the 
overall trends in public scientific investment, the rates of return in 
public goods, the costs to the public from increased regulatory 
activity or from cleaning up spectacular failures.
    The closest that the federal government ever came to 
institutionalizing an oversight mechanism useful to federal decision 
makers was the Congressional Office of Technology Assessment. That 
office conducted important, comprehensive studies on complicated issues 
years before they came to the national forefront. It was widely admired 
around the globe. Indeed Britain, France, Denmark, the Netherlands, the 
EU, the OECD and the UN have created agencies modeled after the OTA. 
Unfortunately, the OTA fell victim to the budget-cutting ax in 1995. It 
is important that Congress have access to objective analysis of 
competing points of view on important scientific questions and research 
opportunities. Re-creation of the OTA, run, as in the past, by a strong 
bipartisan board would be a giant step in the right direction.
Support Scientific Freedom and Openness
    Not since our earliest days of the Cold War have we been faced with 
the question of the balance between scientific freedom and openness and 
the needs of national security and public safety. We are confronted 
today with an enemy that operates in the shadows, that will not only 
tolerate but target civilian casualties and has, at least, expressed an 
interest in acquiring the know-how to obtain weapons of mass 
destruction.
    How then, does the scientific community react to this new threat?
     It is clear that the Bush Administration has a strong policy 
preference for tilting the balance in favor of secrecy; for withholding 
government generated information that may in any way pose a threat if 
used by our adversaries; for encouraging public institutions and quasi-
public institutions, including universities to self-sensor; to remove 
publicly useful information from government web sites; to carry out 
research through the Department of Defense and Energy's black programs; 
to keep foreign students from studying ``sensitive'' academic subjects; 
to provide original classification authority to the Department of 
Health and Human Services, which will complicate the flow of public 
health information between the federal government and State and local 
authorities. In sum, we are well on our way to re-establishing the 
culture of secrecy across many sciences and disciplines, including 
biology, which was characteristic of the cold war approach to nuclear 
weapons, satellite imagery and cryptographic research.
    At a very minimum, a trend which took root under Vice President 
Gore's leadership during the Clinton Administration to make 
scientifically valuable, but formerly classified data publicly 
available has come to a halt. For example, in 1995, for the first time, 
the overhead imageries from the Corona, Argon and Lanyard intelligence 
satellite missions were declassified--historic documents that will be 
of great value to scholars, as well as to the natural resource and 
environmental communities. Today the Department of Defense is buying up 
all commercial satellite imagery and older overhead imagery is being 
withheld from the public.
    In 1998, undersea military data originally gathered to track enemy 
submarines was declassified and released to help researchers track 
marine mammals, predict deadly storms, detect illegal fishing, and gain 
new insights in to the complexities of climate change. The fate of that 
program is also in doubt.
    This new culture of secrecy is bound to influence the direction of 
discovery, the efficient advancement of scientific knowledge, and the 
public's, or at least their representatives in Congress', opportunity 
to assess the costs that come from a science program unchecked by 
public scrutiny. Before we rush headlong into this new era of 
scientific secrecy, we should pause to remember the nuclear-exposure 
experiments carried out in this country on human subjects, including 
the mentally retarded and even children, and remember also, that the 
Ames strain of anthrax that was used in the attacks last fall was 
probably developed in a classified military program, ostensibly for 
defensive purposes.
    Public knowledge, public scrutiny with free exchange of scientific 
information may not only provide the basis to make the breakthroughs 
necessary to stay ahead of our adversaries, but may provide a better 
long-term security paradigm as well. As National Academy of Sciences 
President Bruce Alberts recently noted, ``Some of the planning being 
proposed (on restrictions of scientific publication) could severely 
hamper the U.S. research enterprise and decrease national security.''
    While we must always be mindful of the fact that there are secrets 
worth protecting, only strong Congressional support for scientific 
freedom with a vigorous program of Congressional oversight will keep us 
from slipping back into a culture of secrecy which will not only slow 
the advancement of science in general, but will also hobble our ability 
to develop new technologies to secure our nation.
Conclusion
    There is much in the 2003 R&D budget that can be commended. Overall 
spending increases, continuing the Clinton administration's strong 
support of the scientific research. There is strong support for the 
health sciences and national security, which are unquestionably high-
priority areas. Nevertheless, there is room for improvement. Adequate 
funding should be provided over a broader range of scientific 
disciplines. The NSF should be more strongly supported. Increased 
funding should be provided to create energy security and reduce global 
warming. Further, the government should assess technological outcomes 
and, as much as possible, make those outcomes public. These suggestions 
would allow federal monies to more fully harness the efforts and 
ingenuity of the scientific community for the common good.

    Senator Wyden. Well, thank you for an excellent 
presentation. What was striking is that when the Speaker was 
talking, you nodded quite a bit. And when you were talking, he 
nodded quite a bit. I think particularly in areas like 
environmental and energy research, you can have a debate about 
whether, after that research, you should go this route or that 
route with respect to a regulatory policy or a tax policy or 
something of that nature. But to have the fundamental research 
in the environment and energy area at a time when those 
questions impact our national security is critical. So both of 
you have just given very, very helpful presentations, and we'll 
have some questions in a moment.
    Let's go next to Dr. Leshner. And we know of the 
Association's long involvement in these issues. And you 
proceed, please.

 STATEMENT OF ALAN I. LESHNER, Ph.D., CHIEF EXECUTIVE OFFICER, 
                 AMERICAN ASSOCIATION FOR THE 
                     ADVANCEMENT OF SCIENCE

    Dr. Leshner. Good, thank you very much, Chairman Wyden, 
Senator Allen. I'm delighted to be here.
    I represent the largest general scientific society in the 
world with over 130,000 members and 275 affiliated societies. 
Our members come from the entire range of science, engineering, 
and technology disciplines.
    From that unique perspective, I can tell you that our 
nation's science and technology enterprise is experiencing yet 
another wonderfully successful year with an array of exciting 
opportunities that will yield important benefits throughout 
society. A critical point is that many of this year's most 
important findings illustrate the principle we've been talking 
a bit about, that advances in any one field are dependent on an 
interwoven set of processes that require simultaneous progress 
throughout the broad science and technology enterprise. And I'd 
like to just give you a couple of examples.
    The first is one we've been talking about, which was 
Science Magazine's breakthrough of the year, nanotechnology. 
These breakthroughs depend heavily on fundamental discoveries 
simultaneously in condensed matter physics, chemistry, and 
material science.
    The second example comes from the intersection of astronomy 
and medicine. Advanced optics developed for astronomical 
telescopes are now being used to map the eye retina and may 
lead to improved optimal surgery and corrective lenses.
    One more, molecular biologists and material scientists have 
collaborated and produced incredibly strong spider silk from 
mammalian cells, another advance in material science that could 
have tremendous implications.
    And, finally, having just come to AAAS from NIH, I want to 
emphasize that progress in all of the biomedical sciences is 
heavily dependent on the health of the entire array of science 
and engineering fields. You know, of course, about the 
application of fiberoptics in medical scoping in the use of 
lasers in surgery.
    In my own area of highest expertise, the brain mechanisms 
of addiction, advances in physics and their applications in 
medical imaging technology have finally allowed us to look into 
the brains of living, awake humans during and following drug 
experiences. These studies, based on physics, have 
revolutionized our understanding of this great social and 
health problem.
    So my testimony today on the Administration's budget 
request reflects our belief that balanced and strong support 
across the entire science and technology enterprise is critical 
to the nation's future. Having said that, the Administration's 
request for total federal R&D is a record $112 billion. That's 
$8.9 billion more than the total for fiscal 2002. And, of 
course, we applaud this strong commitment to science, as have 
many of my other colleagues.
    However, the proposed increases for DOD and NIH make up the 
entire amount, leaving the remaining R&D agencies with level 
funding or less. Non-defense R&D would increase 7.2 percent, 
for a total of $53.3 billion. Yet when increases to the NIH are 
excluded, non-defense R&D would actually fall by 0.2 percent.
    With respect to agencies under this Subcommittee's 
jurisdiction, as we've discussed, the total NSF budget would be 
$5 billion, a five percent increase over fiscal 2002. NSF's R&D 
line would increase $125 million, for a total of $3.7 billion. 
However, more than half of that R&D increase is due to the 
proposed transfer to NSF of three programs that come from other 
agencies, accounting for $76 million of the $125 million 
increase. So without these transfers, NSF R&D would increase 
only by 1.4 percent, which is well below the rate of inflation.
    Just touching on NASA, its total budget would increase only 
slightly to $15.1 billion. Intramural R&D at the National 
Institute of Science and Technology, at NIST, would receive a 
$70 million increase, for $402 million, including funding the 
complete the new Advanced Measurement Laboratory.
    If we take a step back and look at trends in federal 
research by discipline between fiscal years 1970 and 2000, we 
can see that federal support for the life sciences has grown 
dramatically, from more than $5 billion constant dollars in 
fiscal 1970 to over $20 billion in fiscal 2001. On the other 
hand, most math, science, and engineering disciplines have 
shown relatively flat or, at most, modest growth. The 
Administration has clearly made defense and medical research 
its highest R&D priorities.
    Our view, however, is that the opportunities and the needs 
go far beyond those two areas. According to Science Magazine's 
predictions for the coming year, we are poised for significant 
advances in astronomy with the proposed launch of a new 
telescope in Chile, more precise global positioning systems 
through the use of optical clocks, and improved visualization 
systems that will allow us to examine biological molecules and 
watch cells signaling as it occurs. These opportunities and the 
interconnectedness of all sciences emphasize the need to 
maintain progress simultaneously across all of science and 
technology.
    In the 21st century, science and engineering fields are so 
interdependent, that lags in one field inevitably will delay 
progress in others. We cannot afford a taking-turns approach to 
science funding. Our continued national security and improving 
quality of life depend on a uniformly health and rapidly 
growing science and technology enterprise across the board.
    Thank you very much.
    [The prepared statement of Dr. Leshner follows:]

Prepared Statement of Alan I. Leshner, Ph.D., Chief Executive Officer, 
          American Association for the Advancement of Science

Introduction
    Mr. Chairman, Senator Allen, members of the Subcommittee, thank you 
for this opportunity to testify before you today on the FY 2003 budget 
request for research and development (R&D). I represent the largest 
general scientific society in the world with over 130,000 members and 
275 affiliated societies. Our members come from the entire range of 
science and technology disciplines.
    From that unique perspective, I can tell you that our nation's 
science and technology enterprise continues its great productivity, and 
has had a tremendously successful year with an array of exciting 
advances that will yield benefits throughout society. Moreover, many of 
this past year's most important findings illustrate and emphasize that 
in the current age, major advances in any one specialty field are 
dependent on an integrated, interwoven set of processes that requires 
simultaneous progress throughout the broad science and technology 
enterprise. A few examples include:

  <bullet> Science magazine's breakthrough of the year: nanotechnology. 
        Scientists and engineers have created the first set of 
        molecular-scale circuits that, when they are wired to computer 
        chip architectures, will provide incredible computing power in 
        tiny machines. This set of breakthroughs depends heavily on 
        fundamental discoveries in condensed matter physics, chemistry, 
        and materials science.

  <bullet> Geologists and chemists have made tremendous progress in 
        revealing the mechanisms of the breakdown of organic matter 
        that can determine soil fertility and the dispersal of soil 
        contaminants.

  <bullet> Using animal models, scientists at an NSF-built science and 
        technology center have worked out many of the molecular and 
        neural mechanisms of the body's biological clock, including 
        critical gene elements. Building on this work, clinical 
        investigators have now shown direct application of these 
        findings in human subjects who have many similar genes.

  <bullet> Combining molecular biology and materials science, 
        researchers have, basically, produced spider silk fibers from 
        mammalian cells.

  <bullet> Advanced optics developed for astronomical telescopes are 
        now being used to help map the eye retina and may lead to 
        improved optical surgery and corrective lenses.

    Since I came to AAAS recently from the National Institute on Drug 
Abuse at NIH, I also want to emphasize that progress in all of the 
biomedical sciences is heavily dependent on the health of the entire 
array of scientific fields. You know, of course, about the application 
of fiber optics in medical scoping, and the use of lasers, developed by 
physicists and chemists, in surgery. In my own area of highest 
expertise--the brain mechanisms of addiction--advances in physics and 
their applications in imaging technology are directly responsible for 
our finally being able to look into the brains of living, awake humans 
during and following drug experiences, and those studies have 
revolutionized our understanding of this great social and health 
problem.
    Over twenty federal agencies contribute to federal R&D, many of 
them under your subcommittee's jurisdiction. Each agency, according to 
its mission, plays a very important role in contributing to our 
nation's R&D productivity, and it is important that all agency science 
programs receive strong support. It is also important to note, however, 
that NSF has a specific mission to pursue basic research across the 
full-range of science and technology disciplines and therefore plays a 
very special and unique role.

Research and Development in the FY 2003 Budget Request
    My testimony today is intended to examine R&D in the 
Administration's budget request, to highlight trends in federal support 
for R&D across disciplines, and to discuss university R&D. It reflects 
our belief that balanced and strong support across the entire science 
and technology enterprise is critical to the nation's future.
Overall Outlook
    The request for total federal R&D in FY 2003 is a record $112 
billion, $8.9 billion more than FY 2002 (see Table 1). However, the 
proposed increases of $5.2 billion for DOD and $3.7 billion for NIH 
make up the entire $8.9 billion increase, leaving all other R&D funding 
agencies combined with barely the same amount as in FY 2002.

  <bullet> Nondefense R&D would increase 7.2 percent to $53.3 billion. 
        NIH would make up almost half of the entire nondefense R&D 
        portfolio, receiving the final installment of a plan to double 
        the NIH budget in five years. Excluding NIH, nondefense R&D 
        would fall by 0.2 percent to $26.8 billion.

  <bullet> Basic research would increase $1.9 billion to an all-time 
        high of $25.5 billion (see Table 2). For the past two years NIH 
        has supported the majority of federal basic research, and in FY 
        2003 it would provide 56 percent of all federal support.

  <bullet> The total federal investment in basic and applied research 
        combined would increase 6.5 percent to $51.9 billion in FY 2003 
        (see Table 2), with a large increase for NIH (up 14.5 percent 
        to $25.6 billion) responsible for most of the increase. Without 
        NIH, total federal research would decline by 0.2 percent (or 
        $48 million) to $26.3 billion.

R&D in NSF, NASA, NIST, and NOAA
    The National Science Foundation (NSF) budget would total $5.0 
billion in FY 2003, an increase of 5.0 percent. Excluding NSF's non-R&D 
education activities, NSF R&D would be $3.7 billion, a boost of 3.5 
percent or $125 million. More than half of the increase, however, is 
due to proposed transfers to NSF--of the National Sea Grant program 
from the Department of Commerce; hydrologic sciences from the 
Department of the Interior; and environmental education from the 
Environmental Protection Agency. These three proposed transfers account 
for $76 million of the $125 million increase to NSF R&D. I emphasize 
the term ``proposed'' because the program transfers must be authorized 
and appropriated with congressional oversight. Excluding the transfers, 
NSF R&D would only increase 1.4 percent, less than the rate of 
inflation.
    The National Aeronautics and Space Administration (NASA) would see 
its total budget increase by 0.7 percent to $15.1 billion in FY 2003. 
NASA's R&D (two-thirds of the agency's budget) would climb 4.3 percent 
to $10.7 billion. While the much-delayed International Space Station 
would receive $1.5 billion for construction, down from $1.7 billion, 
most science programs would receive increases.
    While last year's budget would have eliminated the Advanced 
Technology Program (ATP) at the National Institute of Standards and 
Technology (NIST), the FY 2003 budget would keep it alive, though at a 
greatly reduced level. NIST would instead redirect funds to intramural 
R&D in the NIST laboratories, which would receive a $70 million 
increase to $402 million, including funding to make the new Advanced 
Measurement Laboratory operational.
    National Oceanic and Atmospheric Administration (NOAA) R&D would 
decline by 1.1 percent or $6 million because of the transfer of the $62 
million (in FY 2002) National Sea Grant program from NOAA to NSF. 
Overall, other NOAA R&D programs would see increases.

Multi-agency Initiatives
    Three major multi-agency initiatives that would receive increases 
in the FY 2003 budget merit special mention.

  <bullet> Funding for the Nanoscale Science, Engineering, and 
        Technology Initiative would climb another $106 million (or 17.5 
        percent) to $710 million in FY 2003. NSF's lead contribution to 
        the initiative would rise by 11.1 percent to $221 million.

  <bullet> NSF also continues its lead role in the Networking and 
        Information Technology R&D initiative, which would see its 
        budget edge up 2.5 percent to $1.9 billion.

  <bullet> The longstanding U.S. Global Change Research Program would 
        climb 2.6 percent to $1.7 billion. While NASA's Earth Science 
        program continues to provide the bulk of funding ($1.1 
        billion), the increases in FY 2003 would go mostly to other 
        agencies' contributions. There would also be $40 million in new 
        funds for the Climate Change Research Initiative (CCRI) for 
        fundamental research to fill key gaps in climate science 
        knowledge.

R&D in Colleges and Universities
    Despite their comparatively small share of overall federal R&D 
funding, colleges and universities serve as the primary site for the 
performance of basic research and the training of future scientists and 
engineers. On average, 58 percent of the R&D performed by colleges and 
universities is funded by the federal government, with most of the rest 
coming from the institutions' own funds (see Chart 1).
Trends in the R&D Portfolio
    AAAS also analyzes the budget across all agencies, and that helps 
to understand trends characterizing the science and technology 
enterprise as a whole.

  <bullet> Looking at trends in federal research by discipline between 
        FY 1970-2000, one can see that engineering, physical sciences, 
        environmental sciences, mathematics and computer sciences, 
        social sciences, and psychology are relatively flat, or in some 
        instances, show modest growth. At the same time, federal 
        support for the life sciences has grown dramatically, from 
        slightly more than $5 billion in FY 1970 (using constant 
        dollars) to over $20 billion in FY 2001. (see Chart 2)

  <bullet> Analyzing federal support for life sciences, physical 
        sciences, and engineering research by agency, one can see how 
        dependent the life sciences are on funding from NIH. In 
        contrast, most fields of physical science and engineering 
        research are dependent on funds from many different agencies 
        (see Charts 3 and 4).

Conclusion
    The FY 2003 budget now moves to Congress, which must take on the 
task of establishing budget priorities. This task occurs in a Congress 
far different from last year, with some members criticizing the budget 
for too little funding on domestic programs, and others espousing that 
it spends too much.
    For R&D, the Administration has clearly placed greater priority 
upon defense and medical research. The opportunities for R&D, however, 
are much more extensive. According to Science magazine's predictions 
for 2002, we should see significant advances in astronomy with the 
proposed launch of a second large telescope in Chile; more precise 
global positioning systems through the use of optical clocks that rely 
on visible light waves; and greater clarity of visualization systems 
through improved imaging technology and faster computers that will 
allow us to examine biological molecules and watch cell signaling as it 
occurs. These and other scientific opportunities face Congress as it 
prepares to decide how to allocate precious R&D resources.
    Let me conclude by emphasizing again the need to maintain progress 
simultaneously across all of science and technology. In the 21st 
Century, science and engineering fields are so inter-dependent that 
lags in one field inevitably will delay progress in others. We cannot 
afford a ``taking-turns'' approach to science funding in this country. 
Our continued national security and improving quality of life depend on 
a uniformly healthy and rapidly growing science and technology 
enterprise.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

APPENDIX

American Association for the Advancement of Science (AAAS)
    Founded 150 years ago, AAAS is the world's largest federation of 
scientific and engineering societies, with nearly 275 affiliates. AAAS 
counts more than 130,000 individual scientists, engineers, science 
educators, policymakers, and interested citizens among its members, 
making it the largest general scientific organization in the world. Our 
mission is to advance science and innovation throughout the world for 
the benefit of all people. Our objectives in this mission are to foster 
communication among scientists, engineers and the public; enhance 
international cooperation in science and its applications; promote the 
responsible conduct and use of science and technology; foster education 
in science and technology for everyone; enhance the science and 
technology workforce and infrastructure; increase public understanding 
and appreciation of science and technology; and strengthen support for 
the science and technology enterprise.
    Every year since 1976, AAAS has published an annual report 
analyzing research and development (R&D) in the proposed federal budget 
in order to make available to the scientific and engineering 
communities and to policymakers timely and objective information about 
the Administration's plans for the coming fiscal year. At the end of 
each congressional session, AAAS also publishes a report reviewing the 
impact of appropriations decisions on research and development. AAAS 
has also established a Web site for R&D data on which we now post 
regular updates on budget proposals, agency appropriations, and outyear 
projections for R&D, as well as numerous tables and charts. The address 
for the site is www.aaas.org/spp/R&D.

Alan I. Leshner
    Dr. Leshner became Chief Executive Officer of the American 
Association for the Advancement of Science and Publisher of Science 
Magazine in December 2001.
    Prior to coming to AAAS, Dr. Leshner was Director of the National 
Institute on Drug Abuse (NIDA). One of the scientific institutes of the 
U.S. National Institutes of Health, NIDA supports over 85% of the 
world's research on the health aspects of drug abuse and addiction. 
Prior to becoming Director of NIDA, Dr. Leshner had been the Deputy 
Director and Acting Director of the National Institute of Mental 
Health. He went to NIMH from the National Science Foundation (NSF), 
where he held a variety of senior positions, focusing on basic research 
in the biological, behavioral and social sciences, and on science 
education.
    Dr. Leshner went to NSF after 10 years at Bucknell University, 
where he was Professor of Psychology. While on the faculty at Bucknell, 
he also held long-term appointments at the Postgraduate Medical School 
in Budapest, Hungary; at the Wisconsin Regional Primate Research 
Center; and as a Fulbright Scholar at the Weizmann Institute of Science 
in Israel. Dr. Leshner's research has focused on the biological bases 
of behavior. He is the author of a major textbook on the relationship 
between hormones and behavior, and numerous book chapters and papers in 
professional journals. He also has published extensively in the areas 
of science and technology policy and education.
    Dr. Leshner received his undergraduate degree in psychology from 
Franklin and Marshall College, and M.S. and Ph.D. degrees in 
physiological psychology from Rutgers University. He also holds 
honorary Doctor of Science degrees from Franklin and Marshall College 
and the Pavlov Medical University in St. Petersburg, Russia. He has 
been elected a fellow of many professional societies, is a member of 
the Institute of Medicine of the National Academy of Sciences, and has 
received numerous awards from both professional and lay groups.

    Senator Wyden. Well said. And it's interesting this point 
you make with respect to the interdependence of research. To 
some extent, the research field is a little bit like an 
ecosystem--what you do over here can have dramatic 
ramifications over there. And very well said.
    Let's go now to Thomas McCoy of Montana State.

  STATEMENT OF TOM McCOY, VICE PRESIDENT OF RESEARCH, MONTANA 
                        STATE UNIVERSITY

    Mr. McCoy. Senator Wyden and Allen, thank you for inviting 
me to this hearing today. I'm Tom McCoy, vice president for 
research at Montana State University in Bozeman, Montana. I'm 
also vice chair of the EPSCoR Coalition, the specific program 
that I'd like to address today in my--at this hearing.
    EPSCoR is a program for 21 states. It's an experimental 
program to stimulate competitive research. It includes 21 
states, as well as Puerto Rico. It's important to note that 
these 21 states plus Puerto Rico collectively receive less than 
ten percent of all NSF funding and all federal R&D funding.
    Montana State University serves a student body of 
approximately 11,000 students, most of whom come from Montana. 
It's a land-grant institution in the state, and, as such, has 
strong and proven programs in agriculture and natural 
resources.
    During the last decade, Montana State University has 
experienced exponential growth in its research program. Since 
1990, our external grants and contracts have increase over 400 
percent, from $17 million in 1990 to about $70 million this 
past year, and that's on the basis of expenditures.
    MSU's research program is also noteworthy. We were awarded 
one of the earliest NSF engineering research centers in the 
area of bio-films, and we have a strong recognized program in 
this area. We also have developed a strong program in 
optoelectronics in which our faculty are engaged in cutting-
edge research. And we also provide laboratory facilities and 
support for many of the optoelectronic companies that have been 
created in the Bozeman area.
    We have established one of the very early programs in 
thermal biology, building both on the expertise of our faculty 
and our location near the thermal pools and soils in 
Yellowstone National Park. Our researchers are widely published 
and highly competitive.
    It's important to note that we have a student body that's 
also been very successful. MSU ranks among the top schools in 
the country for the number of students that receive the 
nationally prestigious Goldwater Scholarships for undergraduate 
excellence in mathematics and science. The three 2002 awards 
that we received bring the total to 40, which makes us number--
sixth in terms of total awards, placing us with Harvard and Cal 
Tech in the top ten.
    In addition, two Montana State University seniors were 
named to the 13th annual All-USA College Academic Teams this 
year, bringing to 17 the number of MSU students selected since 
this program began in 1989. We also had a student who won the 
Alice T. Schafer Prize for the nation's best female mathematics 
student this past year.
    Most of our students attribute their successes to 
participating in research projects at MSU. Cutting-edge 
research opportunities are available to our students at all 
levels through a program that we have called the Undergraduate 
Scholars Program. And it's important to note that a major part 
of this program is funded with EPSCoR funds.
    In addition to awards for individual students, our faculty 
also generated a Center for Learning and Teaching Award as well 
as an IGERT Award awarded by the National Science Foundation.
    I'm proud of our achievements at Montana State University. 
But despite our successes, I'm acutely aware that we will 
continue to need substantial federal research funding, and, in 
particular, EPSCoR funding in computing and networking support 
from NSF.
    A major obstacle for many of the EPSCoR state institutions 
has always been the lack of infrastructure. NSF recently 
implemented a new EPSCoR Research Infrastructure Improvement 
Program. It will, for the first time in the EPSCoR program's 
history give us a credible investment over a period of time 
that will allow us to develop the clusters and centers that are 
necessary if we are to be truly competitive. most important 
request of you today is that this program be fully funded, and 
let it fully operate over the next several years.
    I would also like to make a plea for continued support for 
advanced computing and networking in our states. Most of the 
EPSCoR states are either rural and sparsely populated or serve 
large numbers of under-represented groups, two categories where 
connections in advanced computing capabilities tend to be most 
lacking. Our rural areas are where these services tend to be 
the most expensive. The digital divide, as you all know, is 
largely about money.
    Research facilities and instrumentation also continue to be 
a major challenge for institutions such as Montana State. 
Increasingly, our researchers need state-of-the-art 
laboratories and facilities if we are to pursue latest research 
opportunities and take advantages of major increases in NIH and 
NSF funding.
    And, finally, I would like to comment on participation or 
inclusion. For many years, researchers from EPSCoR states were 
seldom found on review panels or advisory committees. Some 
efforts have been underway at NSF to rectify this lack of 
representation, and, in some programs, we have seen real 
progress. In others, we still have a long way to go. Serving on 
such panels is vital to integrating our researchers into the 
overall research community.
    Several years ago, the President's Information Technology 
Advisory Committee, PITAC, was formed, initially, without a 
single member from EPSCoR state. And again, this is 21 states 
in this country. Thanks to this Committee, and I mean this 
particular Committee, especially to Senator Burns, Lott, 
Hollings, and Rockefeller, and to support at NSF, we were able 
to have two appointments made from EPSCoR states. We currently 
have no one from an EPSCoR state on the PCAST and only two 
members from EPSCoR states on the National Science Board.
    In a recent discussion, someone asked me what the EPSCoR 
states really want. We want a truly national and international 
research community. We believe that almost half of the states 
in this country should be sharing a bit more than ten percent 
of all federal R&D. We want a vibrant and widely dispersed 
networking and advanced computing infrastructure, and we need 
help with facilities and equipment. We also need increased 
representation on major boards and panels, and we need a strong 
and fully funded EPSCoR program to do this, and we need your 
continued support for that.
    Legislation as we're talking about today, has been 
introduced in the House to move toward doubling the NSF budget. 
I'm very pleased to hear Speaker Gingrich say he would like 
that to be tripled, at least. The Coalition of EPSCoR States 
strongly supports any increase in the NSF budget. I believe, 
however, that any doubling should have focus. There must be 
priorities and a road map for where we're going. And EPSCoR 
should be part of that road map to assist the 21 states and 
Puerto Rico that participate in the program.
    We also support legislation to expand networking and 
advanced computing programs at NSF, again making a special 
effort to see that this infrastructure is widely dispersed.
    We appreciate the work of this Committee and look forward 
to working with you in the future. And thanks for giving me the 
opportunity to testify.
    [The prepared statement of Mr. McCoy follows:]

     Prepared Statement of Tom McCoy, Vice President of Research, 
                        Montana State University

    I am Tom McCoy, Vice President for Research, Creative Activities 
and Technology Transfer at Montana State University (MSU) in Bozeman, 
Montana. I am also Vice Chair of the EPSCoR Coalition, an organization 
of some 21 states and Puerto Rico that participate in the National 
Science Foundation's Experimental Program to Stimulate Competitive 
Research (EPSCoR) and that have traditionally been viewed as ``less 
research intensive states''--a term that is perhaps increasingly 
inappropriate, although these states collectively still receive less 
than 10 percent of all NSF funding and all federal R&D funding.
    Montana State University serves a student body of approximately 
11,000 students, most of whom come from Montana. It is the land grant 
institution in the state, and as such has strong and proven programs in 
agriculture and natural resources. I came to Montana State in 1990 and 
became Vice President for Research in l998, after serving as a 
department head from 1990 to 1993 and Dean of the College of 
Agriculture from 1993 to 1998. During the past decade, we have made a 
number of changes at Montana State University; changes that I believe 
serve our students, our state and our nation well.
    We continue to pursue a strong base of programs in agriculture and 
natural resources at Montana State. Several years ago, we were able to 
add a plant biosciences facility, partially funded by USDA, through a 
program that, unfortunately, no longer exists. We have moved into 
promising new areas in animal infectious diseases and biotechnology. 
Federal R&D funding has been significant but far from sufficient to 
meet the needs for research and infrastructure as agriculture and 
natural resources, like other areas, have become increasingly 
sophisticated.
    During the last decade, Montana State University has experienced 
exponential growth in research areas. Since 1990, our external grants 
and contracts have increased about 400%--from $17 million in l990 to 
about $70 million this year. MSU was awarded one of the early NSF 
Engineering Research Centers (ERCs) and in a field, biofilms, that was, 
at the time, an emerging, relatively unsupported field. Our ERC has 
served as the model for biofilms programs in both the environmental and 
health fields and remains widely recognized. We have also developed a 
strong program in optoelectronics, in which our faculty is engaged in 
cutting edge research and which also provides laboratory facilities and 
support for many of the optoelectronic companies that have been created 
in the Bozeman area. This interaction with local business and industry 
has been beneficial to the university and the community. We have 
established one of the early programs in thermal biology, building both 
on the expertise of our faculty and our location near the thermal pools 
and soils in Yellowstone National Park. We have recruited a world-class 
cluster in neuroscience that is highly competitive for research 
funding. We are developing a major new program focused on fuel cell 
technology. We have the only Master's degree program in the nation in 
science and natural history film-making.
    Our research efforts are diversified, but focused. And, they are 
good. Our researchers are widely published and are winning competitive 
research awards. Our students are also successful. MSU ranks among the 
top schools in the country for the number of students who have received 
the nationally prestigious Goldwater Scholarships for undergraduate 
excellence in mathematics and science. This year's recipients are Zeb 
Barber of Belgrade, a junior studying laser optics; Sara E. Maccagnano, 
of Churchill, a 30-year old senior studying solid physics; and Britany 
Moss, 18, of Bozeman, a junior in biochemistry. The 2002 awards bring 
to 40 the number of MSU students who have won the scholarships. This 
places MSU sixth among the top ten institutions across the nation in 
the number of students receiving Goldwater Scholarships. In order, the 
top ten universities are: Harvard/Ratcliffe, Princeton, Duke, Kansas 
State, California Institute of Technology, Montana State, University of 
Chicago, Penn State, University of Illinois at Champaign/Urbanna, Johns 
Hopkins and Washington University in St. Louis.
    Most of our students attribute their success to participating in 
research projects. Cutting edge research opportunities are available to 
students at all levels through the Undergraduate Scholars Program, 
funded through EPSCoR, and other programs on campus.
    In addition, two Montana State University seniors, Phenocia Bauerle 
and Kay Kirkpatrick, were named to the 13th annual All-USA College 
Academic Teams this year, bringing to 17 the number of MSU students 
selected since the program began in l989. An MSU undergraduate won the 
Alice T. Schafer Prize for the nation's best female mathematics 
student. Three students who previously received Goldwater Scholarships 
while at MSU won 2002 Graduate Research Fellowships from the National 
Science Foundation.
    I believe these figures indicate that Montana State University has 
an excellent track record in integrating research and teaching and 
helping to prepare the mathematicians, scientists and engineers of 
tomorrow. In addition to awards for individual students, our faculty 
have been granted two highly visible competitive awards--a Center for 
Learning and Teaching (CLT) and an Integrative Graduate Education and 
Research Traineeship Program (IGERT) award by the NSF. Furthermore, we 
have operated a student research experiences program, using EPSCoR 
funds, that has supported more than 300 students. At Montana State 
University, we are developing a new core curriculum and a major focus 
of the new program is to integrate discovery and learning. We have 
initiated a highly focused program of freshman seminars and sophomore 
research experiences courses. Our goal is to eventually have every 
incoming student engaged in a freshman seminar and the sophomore 
research core.
    I give this background for several reasons. One is to illustrate 
the quality of research that is being undertaken in the EPSCoR states. 
Another is to demonstrate the contributions that our universities are 
making not only in education and research but also to the community and 
state.
    I am very proud of our achievements at Montana State University. I 
believe they are the outgrowth of several factors: the most important 
one is undoubtedly the ability to attract and retain good faculty who 
can win competitive awards. Another is the support that we have 
received from elected officials both on the federal and state level. A 
third is the commitment of two of our MSU presidents and our 
administration to identifying research areas where we have strength and 
finding the resources to pursue those areas. A fourth is the ability of 
a university such as MSU to integrate learning and discovery on our 
campus. And, fifth, but not least, is the support that we have received 
from NSF, the Congress and this Committee for the EPSCoR program and 
related efforts, such as computing and networking.
    Despite our success, I am acutely aware that we will continue to 
need substantial federal research funding, in particular EPSCoR funding 
and computing and networking support from the National Science 
Foundation, and infusion into the larger research community if we are 
to advance our research agenda. EPSCoR was created in the National 
Science Foundation and in its early years allowed states like Montana 
to encourage and support a limited number of principal investigators 
and to begin small research projects. Perhaps more importantly, 
however, it awakened us to the importance of R&D--both for our 
institutions and states--and helped us become aware of opportunities 
and possibilities that we might not otherwise have pursued. It has 
helped us focus the university's goals of becoming more competitive 
nationally, thereby contributing to the nation's knowledge base and to 
economic growth in the states.
    A major obstacle for many ``less research intensive'' states and 
institutions has always been the lack of infrastructure. By this I mean 
we do not have adequate equipment or the special faculty hire or the 
faculty support package that would enable us to develop research 
expertise in a select area. EPSCoR is helping us develop that 
infrastructure.
    NSF recently implemented a new EPSCoR infrastructure program. 
Montana was one of the first six recipients of funding under that new 
program. And, I can tell you that program is what we need at this 
particular time. It will, for the first time in the EPSCoR program's 
history, give us a credible investment over a period of time that will 
allow us to develop the clusters and centers that are necessary if we 
are to be truly competitive. Most EPSCoR states have yet to receive 
funds under this program. None have been through a complete three-year 
cycle. My most important request of you is to fully fund this program 
and let it fully operate over the next few years. Capacity building 
takes time, as NSF and other agency efforts to create centers at major 
universities in the l960's indicates. This new EPSCoR infrastructure 
program is a good one. Let it work! This infrastructure program, 
together with similar efforts at NIH, are the base for future 
competitive research activities in almost half of the states in this 
nation.
    I would also like to make a plea for continued support for advanced 
computing and networking in our states. Several years ago, when NSF 
started its new networking program, it appeared as if the EPSCoR states 
would be left out. In fact, of the first 57 awards made under the vBNS 
high-speed connections program, only one went to an EPSCoR state. 
Thanks to efforts within NSF--and strong support from this Committee--
the program was expanded, supplements were provided and ultimately, 
there was at least one connection in every state. About the same time, 
the President's Information Technology Advisory Committee (PITAC) was 
formed--initially without a single member from an EPSCoR state. Again, 
thanks to this Committee, especially to Senator Burns, Senator Lott, 
Senator Hollings and Senator Rockefeller, and to support at NSF, we 
were able to have two appointments made from EPSCoR states.
    I single out advanced computing and networking for several reasons. 
First, they are of particular importance to the EPSCoR states. Most of 
the EPSCoR states are either rural and sparsely populated or serve 
large numbers of under-represented groups, two categories where 
connections and advanced computing capabilities tend to be most 
lacking. Secondly, our rural areas are where these services tend to be 
the most expensive. The digital divide is largely about money. Thirdly, 
advanced computing and networking are so important because they are the 
principal means by which people in rural states can overcome the limits 
of geography. With advanced computing and networking capabilities, we 
can enhance the educational offerings for our students, have our 
faculty collaborate with scientists at distant points, access and use 
equipment at remote sites and manipulate and analyze large data sets 
located elsewhere. All of this means more advanced research 
capabilities on our campuses.
    Advanced computing and networking are infrastructure, especially in 
the rural and EPSCoR states. They are our lifeline to the larger 
research community, to research competitiveness and to recognized 
research expertise for our institutions. For that reason, I believe 
that advanced computing and networking are areas where there must be 
special efforts to insure that all states participate fully in federal 
programs.
    Facilities continue to be a major challenge for institutions such 
as Montana State. We do not have the resources and endowments that many 
institutions have. The opportunity for raising large sums from private 
sources is limited. Yet, increasingly, our researchers need state-of-
the-art laboratories and facilities if we are to pursue the latest 
research opportunities. And if we are to make the most of major 
increases in NIH and NSF funding, additional facilities are vital. At 
this very moment, MSU has access to major equipment valued at $850,000, 
which would be a major asset for our nanotechnology group, but we 
cannot take possession because we do not have a proper facility for it.
    A strong instrumentation program at NSF is also essential. 
Ultimately, research success depends upon researchers. And, it is 
difficult to attract and retain good researchers if you cannot provide 
them with the tools necessary to undertake their research. Start-up 
costs for new hires in the sciences continue to rise. We are fortunate 
that new technologies and new equipment allow us to dramatically expand 
our horizons, but that comes at a cost and if a university cannot meet 
those costs, then its research activities will falter.
    Finally, I would like to comment on participation or inclusion. For 
many years, researchers from EPSCoR states were seldom found on review 
panels or advisory committees. Some efforts have been underway at NSF 
to rectify this lack of representation and, in some programs, we have 
seen real progress. In others, we still have a way to go. Serving on 
such panels is vital to integrating our researchers into the over-all 
research community, as is the technical assistance provided by NSF 
through the Centers Development Initiative (CDI). I mentioned the 
earlier experience with PITAC, where this Committee helped secure 
representation for EPSCoR states. We currently have no one from an 
EPSCoR state on the PCAST and only two members from EPSCoR states on 
the National Science Board. This is important. Please do not forget us.
    In a recent discussion, someone asked me what the EPSCoR states 
really want. There is no one answer. But, I have tried to suggest 
several. We want a truly national--and international--research 
community. We believe that almost half of the states in this country 
should be sharing a bit more than 10 percent of all federal R&D. We 
want a vibrant and widely dispersed networking and advanced computing 
infrastructure. We need help with facilities and equipment. We need a 
strong and fully funded EPSCoR program, and for that we need your 
continued support.
    Legislation has been introduced in the House of Representatives to 
move toward a doubling of the NSF budget. The Coalition of EPSCoR 
States supports that legislation. I believe, however, that any doubling 
should have focus. There must be priorities and a roadmap for where we 
are going--and EPSCoR should be part of that roadmap to assist the 21 
states and Puerto Rico that participate in the program. We also support 
legislation to expand networking and advanced computing programs at 
NSF, again making a special effort to see that this infrastructure is 
widely dispersed.
    We appreciate the work of this Committee and look forward to 
working with you. Thanks for giving me the opportunity to testify.

    Senator Wyden. Thank you, Mr. McCoy. That was very helpful.
    Dr. Torr?

    STATEMENT OF MARSHA R. TORR, Ph.D., VICE PRESIDENT FOR 
           RESEARCH, VIRGINIA COMMONWEALTH UNIVERSITY

    Dr. Torr. Mr. Chairman, Senator Allen, I'm very pleased to 
have this opportunity to talk with you on behalf of Virginia 
Commonwealth University, a research university, and the 
relationship that federal funding has to the wealth of human 
capital, knowledge advancement and economic impact that these 
institutions continually produce.
    These top 100 research universities provide an advanced 
educational experience to 2 million undergraduate students and 
280,000 graduate students in a very distinct learning 
environment that is really forged by the relationship of the 
federal government to these universities over the past 50 
years.
    Virginia Commonwealth University is a public university. It 
includes one of the nation's oldest schools of medicine and the 
nation's very newest accredited school of engineering. This 
year we will receive approximately $160 million in competitive 
externally funded awards for our research and training, and 
over 64 percent of this will be from the federal government. 
So, like our peer institutions, it's primarily our relationship 
with the federal government that makes us a research 
university. This is our principal means of doing creative 
research.
    These resources provided by these funds allow us to recruit 
leading faculty, they allow us to compete for strong graduate 
students. And the caliber of these individuals sets the 
character and the tone of much of the university, most of which 
is the undergraduate enterprise. At a research university, the 
undergraduates would not have the advanced learning experience 
they have if we did not have the ability to attract and retain 
quality individuals as a result of our federal research 
funding.
    The need to stay state of the art in facilities and 
equipment poses great challenges for institutions like VCU. 
This means adding new, modern laboratories and renovating 
facilities that often were constructed in the 1960s and the 
1970s.
    The NIH has a very significant program that supports the 
reconstruction of university research facilities. We've just 
been awarded one of these. It will allow us to renovate 10,000 
square feet of outdated space into a state-of-the-art 
laboratory to study the pathways by which cells develop 
diseases like diabetes and cancer. This new facility will allow 
us to attract three strong new researchers. Our students will 
learn from these faculty, and they will experience these 
facilities.
    A comparable NSF program to assist institutions such as us 
to renovate our outdated chemistry and physics and math 
facilities and laboratories would be of enormous value to 
Virginia Commonwealth University, and it would influence the 
decision of students to choose the sciences and mathematics.
    VCU is the international leader in comprehensive traumatic 
brain injury and rehabilitation. If you suffer traumatic brain 
injury in Washington, D.C., or in the forces in Afghanistan, 
you will be managed in accordance with principles developed and 
researched at Virginia Commonwealth University with the 
advanced edge that has been given through federal research 
funding.
    The annual cost for treatment for traumatic brain injury in 
the United States is over $35 billion a year. VCU's research 
will lead to a reduction in that cost.
    But our ability to deliver on the full promise of the 
alignment of our institution around the life sciences is 
inherently limited if we cannot integrate the ideas and 
expertise of our chemists in the production of nano-devices to 
assist in molecular imaging, our physicists in the shaping of 
particular beams in new ways for cancer therapies, our chemical 
engineers in the development of bio-chips for diagnosis and 
therapy, our mechanical and electrical engineers in the 
development of advanced limb replacement and robotic assists, 
and our mathematicians in imagery reconstruction and 
interpretation. To contribute at the level needed, these 
scientists must have achieved a level of excellence in their 
own fields first. That comes from competitive research funded 
primarily by the National Science Foundation.
    The Congress will not make a better investment this year 
than the over $24 billion it will invest in basic research to 
support the research universities and their infrastructure. The 
footprint of that investment is national, it is extensive in 
time, and it has major international dimensions.
    Mr. Chairman, I want to thank you and Senator Allen for 
giving me this opportunity to tell you about the very pivotal 
role that federal funding from agencies like the NSF have in 
shaping the nature of our research universities.
    [The prepared statement of Dr. Torr follows:]

    Prepared Statement of Marsha R. Torr, Ph.D., Vice President for 
               Research, Virginia Commonwealth University

Introduction
    Mr. Chairman and members of the Committee, I am pleased to be here 
today and to have this opportunity to speak on behalf of a research 
university and the relationship of federal funding to the human-, 
knowledge- and economic-capital that these institutions continually 
produce.
    Amongst the spectrum of higher educational institutions in the 
United States, the top 100 research universities provide an advanced 
educational experience for over 2 million undergraduate and 280,000 
graduate students in a distinct learning environment that has been 
formed by the strong relationship between the federal government and 
the research universities over the past 50 years. These institutions 
produce 75% of the nation's Ph.Ds (and hence most of the faculty of all 
the universities and colleges), their graduates are a national wealth 
in human capital that includes our teachers, engineers, scientists, 
architects, lawyers, business leaders, physicians, and so many other 
groups of people on whom we depend. These institutions conduct half of 
the basic research that is done in the United States--every year 
pushing out the boundaries of knowledge. The ideas and inventions of 
that research have led to a substantial return on the investment in 
terms of new products--and the associated new companies, new jobs--that 
have led to such improvements in our quality of life.

Virginia Commonwealth University--and federal funding for its research
    Virginia Commonwealth University is a public university that 
includes one of the nation's oldest schools of medicine and the 
nation's newest accredited school of engineering. In federal 
obligations for science and engineering R&D, we rank 88th and second in 
Virginia. This year we will receive approximately $160M in competitive 
externally funded awards for our research and training, of which 64% 
will be from the federal government, and 12% each from state, 
foundation and industry sources. So, like our peer institutions, it is 
our relationship with the federal government that makes us a research 
university. These funds will support almost 1000 research projects. 
While we are one of the largest academic health systems in the United 
States, and the largest part of our federal funding is from the NIH, 
the impact of what we are able to do would be severely limited without 
the integration with advanced capabilities in our other disciplines. 
For example, the work we do in tissue regeneration in our school of 
medicine depends on the work done in our school of engineering in 
advanced polymers that has led to nanoscale, biocompatible tissue 
support scaffolds. Work funded in one field by the NIH has now merged 
with work funded in another by the Department of Defense and the NSF to 
become more valuable. VCU is the largest employer in Richmond and one 
third of all Virginia indigent care is provided in our hospital. But 
the ideas and inventions of research add substantially to its economic 
impact. In the example given here, the research has led to a promising 
Richmond-based start-up company. Last year VCU was involved in the 
start-up of seven companies. As a result of our research, VCU together 
with its Biotech Research Park has had an extraordinary role in the 
renewal of inner city Richmond.
    VCU is typical of public research institutions in that there are 
few means of supporting creative research other than the efforts of 
faculty who write proposals to funding agencies and are successfully 
awarded grants or contracts to fund their work. The research enterprise 
in such a university must essentially stand on its own financial base. 
Approximately one dollar out of every five coming into the university 
is in the form of a grant or contract. These external research funds 
are woven through most of what we do. This funding establishes the 
caliber of the education we offer. This year Virginia Commonwealth 
University will receive about $100M in federal funding for research. 
This includes about $20M in facilities and administration costs to 
cover the shared support of the grants management, accounting, human 
subjects protection, research animal care, handling of hazardous 
materials, and research facilities. With the scope and cost of 
compliance expanding continually and the rate at which technology 
becomes outdated, it is vital that the grants cover the cost of the 
university's research support structure that must meet a broad front of 
regulation.
    The largest portion of the $100M in federal funding that we will 
receive this year is spent on salaries for the people who work in the 
research enterprise: the salaries of our research faculty for the time 
that they spend on research vs. teaching or clinical responsibilities; 
the stipends for the graduate students who serve apprenticeships in the 
research programs; the salaries of post-doctoral fellows--many of whom 
will become principal researchers and teachers themselves; and the 
salaries of the technicians, data and computer specialists, and 
assistants all of whom make up the research engine of the university. 
The federal funding provides the resources that allow us to build a 
base of leading faculty and allow us to compete for strong graduate 
students. The caliber of these individuals then sets the character and 
tone of much of the university--most of which is the undergraduate 
enterprise. Our undergraduates would not have the learning experience 
they now have if we did not have the ability to attract and retain such 
faculty as a result of this $100M in federal research funds. And, of 
course, these funds buy the advanced equipment and supplies that are 
essential to research. This means that employers hiring our students 
know that they have been exposed to state-of-the-art environments and 
approaches to problem-solving and dealing with complex issues. Their 
experience has not been limited to textbooks and problems with known 
answers.
    The University invests a portion of the recovered shared costs in 
maintaining our competitive edge: an important part of these funds goes 
into the so-called start-up recruitment packages for new faculty--the 
funds to get them and their research teams competitively launched. We 
use a portion of the indirect costs to reward productive departments 
and groups with additional funding for graduate student assistantships 
and to mentor new faculty as they begin a research career. As a result 
of these bootstrapping efforts, VCU grew in federal funding by 17% last 
year and will increase its federal funding this year by 20%.
    This enhancement is what enriches our educational value and the 
quality of the engineers, physicians, educators and social scientists 
that we graduate. This growth in our research capabilities and 
expertise is the magnet that attracts sponsors from the private sector. 
Companies would not have an interest in partnering with us if we did 
not have the leading edge researchers and facilities that are made 
possible by our research grants from the NSF, NIH and DoD.
    The growth and the need to stay ever state-of-the-art in facilities 
and equipment poses great challenges for the institution. We have an 
increasingly urgent need for modern laboratory and research space. This 
means adding new space and renovating facilities constructed in the 
1960's and the 1970's. The NIH has a program that supports the 
construction or reconstruction of research facilities. This has 
enormous value for universities like ours. I am able to use part of the 
indirect costs recovered to provide 1:1 matching funds for a grant from 
NIH that will allow us to completely renovate 10,000 square feet of 
outdated space into an advanced laboratory to study the pathways by 
which cells develop diseases such as diabetes and cancer. The promise 
of the new facility is allowing us to recruit three strong researchers 
in this area and we will soon have a nationally leading group that has 
critical mass enough to make an impact. Our students will learn from 
these faculty and experience these facilities. An NSF program to assist 
institutions renovate their outdated chemistry and physics and math 
facilities would be of great value to VCU and would influence the 
decisions of students to select science and mathematics programs.
    VCU is the international leader in comprehensive emergency-room-to-
return-to-workplace traumatic brain injury care. This strength includes 
neuroscientists, neurosurgeons, neuropharmacologists, psychiatrists, 
psychologists, and rehabilitation specialists and spans five of the 
schools within the university. Last year represented our 27th year of 
continuous federal funding in this field and saw over $14M in 
competitive federal funding for our research involving the brain. The 
efforts of our researchers have resulted in the survival rate of 
traumatic brain injury being improved by 30%, over 1200 papers in the 
literature, and one-third of all the clinical trials of new drugs for 
brain injury treatment have been designed and executed from our 
hospitals and clinics. If you suffer traumatic brain injury in 
Washington DC or in our forces in Afghanistan, you will be managed in 
accordance with principles developed and researched at VCU as a result 
of the critical mass of expertise that has been built and the leading 
edge it has been given with federal basic research support. Three years 
from now we hope to inhabit our new Brain Research Institute that will 
allow us to co-house for the first time, 30 of these international 
leaders and their research teams around shared core facilities. The 
State of Virginia will provide funds for the construction of the 
building itself, but only with partnership with the federal government 
can we acquire the advanced facilities and retain and enhance the 
research teams who will change the outcomes of traumatic brain injury. 
The annual cost of treatment for traumatic brain injury in the United 
States is estimated to be about $35B. VCU's research will lead to a 
reduction in this figure.
    However, our ability to deliver on the full promise of our 
commitment to the life sciences is inherently limited if we cannot 
integrate the ideas and expertise of our creative chemists in the 
production of nanosignaling particles to assist molecular imaging; our 
physicists to work with the shaping of particle beams for cancer 
therapies; our chemical engineers to develop the bio-chips for 
diagnosis and therapy; our mechanical and electrical engineers to work 
in the development of advanced limb replacement and robotic assists; 
and our mathematicians to work in image interpretation. To contribute 
at the required level, all of these must have achieved a level of 
excellence in their fields that comes from competitive research funding 
primarily from the National Science Foundation and the Department of 
Defense. The development of our integrated strength and impact is tied 
to NSF and DoD basic research funding.
    The federal government will not make a better investment this year 
than the $24B it will invest to support basic research and the research 
infrastructure of our research universities. The footprint of that 
investment is national, extensive in time, and has major international 
dimensions.
Conclusion
    Mr. Chairman, I want to thank you and the Committee for giving me 
this opportunity to tell you about the pivotal role of federal research 
funding in shaping the nature of our research universities--one of our 
most vital national assets.

    Senator Wyden. Thank you very much, Dr. Torr. Our thanks to 
all of you--and a very good presentation.
    Let me begin with a question for the Speaker and Mr. 
Podesta sort of born out of your experiences up here. As you 
know, you see your typical member of Congress, and they get up 
in the morning, and it's 8 o'clock, breakfast with the grange, 
9 o'clock, head to the subcommittee on acoustics and 
ventilation to talk about some vital matter, and, you know, the 
whole day is essentially jam-packed full of these kinds of 
things.
    Senator Allen and I have had a special interest in these 
issues, science and technology, so we make time to get over 
here. But obviously, it's a challenge to get members of 
Congress involved in these questions. And we're going to call 
on you as we wrestle with this sort of OTA versus, Academy of 
Sciences approach. I gather there's something in the energy 
bill that sort of is an amalgam of those kinds of principles.
    But let me begin with you two by way of saying, are there 
other ways that we could get Congress serious about science 
issues and tackling science questions that people would see as 
something that, would be politically viable and allow us to 
make significant headway on these questions? Mr. Speaker, do 
you want to start?
    Mr. Gingrich. Sure. Let me just say, I think that 
scientists themselves have an obligation. I mean, all of these 
scientists and all of these universities have to occasionally 
get out of their lab and away from their lecture hall and go to 
a town hall meeting and go to a congressional or senatorial 
office and make a case.
    And I know AAAS has worked for years. I've been a member 
for many years, and we've worked for years on getting 
scientists to understand they're citizens, too. They're not 
above the process of politics, and they're not above the 
process of explaining the legitimacy of what they're doing.
    Second, though, I would sort of break the--this is probably 
a little bit too simple, but I think it gives you a notion--I 
would break the large, complex idea of scientific knowledge 
into four practicals, because I think many of our colleagues, 
my former colleagues, respond more rapidly to practical 
things--jobs, health, defense, and then science as a 
contributor--and try to drive home the case that what you are 
describing is, in fact, the next Silicon Valley, the next job 
creation, the next wealth creation, the next Reston area in 
your state, Senator, or the next Portland area. What we're 
describing are the jobs of the future. We're describing aspects 
of health.
    I mean, in every district in this country, there are people 
alive today who would be dead without the advances of science 
in the last 30 years, period. I mean, just--I mean, if we just 
have a rally in each state of the people who literally would 
not be here if it weren't for science, it would begin to drive 
home how serious this is.
    Third is defense. I couldn't--I cannot overstate the 
national security implications of sound science. I mean, if 
lose--if we don't catch the wave of the scale of change that's 
coming, we will not be the leading power on the planet in 20 
years. And it's not a question of economic growth. It's a 
question, as the Iraqis discovered, as the Afghans discovered, 
of just literally being outclassed at such a level that you 
don't even understand what's happening to you. And there's an 
enormous danger there.
    And the last is just the sheer excitement of science. I 
happen to love the natural world, and I love, for example, Jack 
Horner and what he does with dinosaurs in Bozeman. And I 
believe that there is an exciting educational adventure story 
to be told in every congressional district and every senator of 
what science means in giving the human race hope for a better 
future and a future of vastly more opportunity.
    Those are the kind of themes I'd try to use, to then say, 
``By the way, this is called science funding.'' But it's start 
with the end result, and then come back to why you need the 
money.
    Senator Wyden. Very good.
    Mr. Podesta?
    Mr. Podesta. Well, it's hard to add to that. I think that--
let me say two things--I think the success of the NIH funding 
stream is the direct result of real people meeting with members 
of Congress and saying, ``This affects us each and every day.'' 
And that's, I think, why you've seen the support, which I think 
is terrific, go up. And that's, I think, what we need.
    But let me tell you one little quick story, which is--which 
goes to the last point that the Speaker made. The President, 
each week, used to get--President Clinton used to get, in the 
White House, a weekly report from every office in the White 
House, and it was sort of his way of staying in touch with what 
was going on, and he used to read those on Sunday night, and he 
had a habit of marking them all up and giving us a lot of work 
to do.
    I think the one that was always the most marked was--and I 
think you might find this surprising--was the memo from our 
science advisor from the Office of Science and Technology 
Policy, because there was exciting material in that report. It 
was a page or two, but the latest developments, the most 
interesting things that were going on always caught his 
attention, and I dare say I think they would catch the 
attention of most members of Congress who, if they knew what 
was going on and had that presented to them in an interesting 
format, would say, ``This is really important stuff, and I've 
got to learn more about it.''
    Senator Wyden. That's interesting. I mean, in a sense, 
you're saying if you could put, in a member of Congress's 
hands, something along the lines of what got to the President 
every Sunday night, people would walk away--if not whipped up 
into a frothing of excitement----
    [Laughter.]
    Senator Wyden.--but by Monday, start of the week, they'd 
see how some of this stuff was really interesting and worth the 
time.
    Mr. Podesta. I believe that.
    Senator Wyden. That's very good. All right.
    One question for you, Dr. Leshner, and then I'm going to 
recognize my colleague. Be the devil's advocate for a moment--
or let's say the devil's advocate is around, and somebody 
doesn't want to double the NSF, and basically says, ``Aw, they 
can do with, you know, the money they've got. It's just fine,'' 
and the like. If you had to respond to that, what would a 
larger NSF be able to do that it can't do now?
    Dr. Leshner. One of the things that I think is important to 
keep as context is the fact that NSF grossly under-funds every 
single grant that it makes, because it's trying to maximize the 
number of grants. So you could actually, tomorrow, double the 
size of every grant, have no negative effect on--you know, you 
would not be under-funding that grant. That is to say you could 
literally double every grant, double the budget instantly and 
consume all the money in an extremely productive way. So that's 
point one.
    The second is that the array of opportunities throughout 
the entire science and technology enterprise, when we're 
funding, at most, 20 to 30 percent of the excellent proposals 
that come in, the array of opportunities lost is tremendous. 
And, as our colleagues just pointed out, if we don't take 
advantage of those opportunities, we fall risk to becoming 
stragglers in the age of technology in the same way that so 
many other countries are fearing themselves to be.
    So I would argue that if we could just catalog--and perhaps 
for our joint colleagues--if we could catalog the 
opportunities, you could run through them very rapidly, and you 
would discover that doubling or perhaps tripling funding for 
science in this country would be a wonderful investment.
    The data speak. It's happened before.
    Senator Wyden. Very good.
    Senator Allen?
    Senator Allen. Thank you. The witness has addressed many of 
the questions I had, and I'd like maybe Dr. Leshner, Dr. Torr, 
and Dr. McCoy--if you'd comment on this.
    As far as regulatory burdens or regulatory constraints, I 
mentioned in my opening remarks, and I've heard it from some 
universities, that the regulatory burden is costing 
universities, maybe such as VCU, for example, in terms of 
reduced research. Dr. Torr or Dr. Leshner or Dr. McCoy, would 
you--any of you all want to comment on that concern and what we 
can do to make sure the research is actually being done and not 
having any regulations diminish that capability?
    Dr. Torr. I think we all recognize, Senator Allen, that 
research and advanced research has with it significant 
responsibilities, and there are responsibilities to manage the 
financial resources that are provided to us well, and the 
responsibility to take very good care of participants in 
research--human participants in research, and animal subjects 
used in research. And we take those responsibilities very 
seriously, and we recognize the need to regulate that.
    It is expensive. And I think we would ask for your help in 
making sure that we are able to cover those costs as part of 
the federal grants and contracts that we receive.
    I don't know if you're aware, but part of the indirect 
shared costs that we recover to support meeting all of that 
growing burden of compliance are capped. And so we actually 
must underwrite part of the cost of research from institutional 
funds that, as public institutions, we generally do not have an 
alternative source for.
    So just as Dr. Leshner has said, NSF could really get far 
more out of fully funding the research projects it funds, and I 
agree with that. We would have much of the burden of complying 
with regulation, which we accept and realize must be there, if 
it did not come with such a punitive financial component to it 
in terms of our having to pay for it out of monies we really do 
not have.
    Senator Allen. Mr. McCoy--Dr. McCoy?
    Mr. McCoy. I would just concur. And basically, to me, it's 
one of these situations that the requirements, when they're 
appropriate, they're not overly burdensome. It comes down to 
money. And when they come as unfunded mandates, it is a 
problem.
    But otherwise, a lot of these things that are coming down 
are appropriate. I mean, I think that everybody is much more 
sensitive to animal use and care issues, human subject issues, 
and those types of things, and we all want to make sure that 
we're doing the right thing. But, as my colleagues already 
said, when they're not funded, it is a burden for the 
institution.
    Senator Allen. Thank you. Dr. Leshner?
    Dr. Leshner. I would just quickly add that it's important 
that the scientific community itself understands the complexity 
of the issues with which we're now dealing, and that we are 
getting closer and closer to issues that go to the core of our 
humanness. And, therefore, it requires a degree of regulation. 
It requires a degree of oversight that we've never had before--
human subjects issues, animal research issues. These are issues 
that require close scrutiny, and we in the community recognize 
the need for that. So we do understand that.
    At the same time, we need to have the infrastructures in 
place that allow us to do it. We need to have the financial 
support, and we need to have the guidelines and the principles. 
And, again, we in the scientific community are working 
continuously to improve the quality of those guidelines to make 
sure that we are, in fact, being responsible.
    Senator Allen. Thank you. That just means that the grants 
need to be more realistic as to what your overall costs are in 
that research. Thank you, that's a good clarification for some 
for some of these concerns.
    Mr. Podesta mentioned not earmarking NSF funds. He also 
mentioned--and I think it was very insightful--the reason NIH 
is increased. You have folks who have cancer or heart diseases 
or the family's children have diabetes, and those are real, 
live people that you think of when you're making those funding 
decisions.
    Some of the NSF issues, much of that research is--you don't 
necessarily know where it's going to lead. You know it's 
beneficial, it's all interrelated, and you'll never know how 
something in the space program ends up affecting lipstick or 
sunblock or who knows what it may be, but other commercial 
uses, and so that makes it harder.
    Now, one thing that you hear, though, from--I've heard from 
time to time--is that in the NSF programs, they tend to favor 
the more well-known research institutions when awarding grants 
based on--well, we have two from universities here, Montana 
State and Virginia Commonwealth University. Do you believe that 
that's an accurate statement, that there's a favoritism to some 
of the more well-known universities insofar as the awarding of 
these grants, NSF grants?
    Either one of you all--I'd like to hear from both of you 
all. And if Dr. Leshner wants to--or the Speaker--whenever the 
Speaker wants to say something, I always want to listen, but I 
know you all are--it gets to Mr. Podesta's point in an indirect 
way.
    Dr. Torr. Senator Allen, I think it gets down to where the 
existing strength and capability is at any one time. And if the 
size of a budget is frozen around an existing set of 
established institutions, then those continue to be the ones 
primarily that will receive those funds until there is a growth 
in the budget for the agencies that supply those funds.
    And so earmarking, I think, is very much a creature of 
institutions growing to meet national need. But the budget 
growth is not there in trying to break in, in order to 
establish great capabilities from which they can continue to 
compete. It's a way to get people launched to be competitive.
    So one can achieve that same end with a rational growth in 
the funding of these agencies and programs like the NSF has had 
for underdeveloped states, the EPSCoR program, to which my 
colleague has just spoken, and programs like the NIH has 
developed to bring emergent institutions into pre-center 
development of faculty, and development of capabilities that 
then position them to go into the mainstream competition with 
all those other institutions.
    So I think as long as we can continue to do that, then the 
strong emerging components of universities are able to enter 
the field and compete with anybody.
    Senator Allen. Thank you.
    Mr. McCoy. Senator Allen, I would, again, concur with my 
colleague and just add a couple of points. Personally, I don't 
think that it's necessarily a situation where there is 
favoritism on the part of larger universities in terms of 
review panels relative to reviewing a proposal more positively 
from a larger research university versus a smaller research 
university like Montana State. The big issue is the issue that 
I was trying to emphasize in my testimony, which has to do with 
this infrastructure issue.
    And, really, where we need to be able to grow with a 
program like an EPSCoR program, like the IDeA program in the 
NIH, is that enables us to literally go out and hire additional 
faculty, that if we don't have some of those federal assistance 
dollars, these are dollars that are matched with state dollars, 
in terms of building these programs, it is now enabling us to 
actually go out and hire absolutely stellar scientists from 
large research universities that, in the past, we may have had 
much more difficulty doing.
    And I sincerely attribute our 400 percent growth in 
research in basically a decade to the ability to build our 
infrastructure. And I would just reiterate that the EPSCoR 
program, now the IDeA program, is allowing us to continue to do 
that, expand that. And I hope to see, in the next decade, 
another 400 percent increase in our grants and contracts 
expenditures.
    Senator Allen. Well, it's important for us to recognize 
that most of the research, while it's done in various federal 
agencies and other agencies, much of it is in our--is conducted 
in our universities, which is important for the research, but 
it's also important for the education and the attractiveness 
and having students actually involved in the research so that 
when they leave the universities, their graduate programs, they 
enter into the private sector, or some may go into the 
Department of Defense, or who knows where they may--they may go 
into NASA and various agencies there. But nevertheless, they 
actually are conversant with it. They've been doing that hands-
on research, and they are very valuable to a private company 
that may be also a partner in some of that research.
    Mr. Speaker?
    Mr. Gingrich. I want to just, if I could, Senator--I think 
you asked a very profound question. And it actually, I think, 
goes back to something that the Chairman and Dr. Leshner 
discussed.
    Let me start by saying the distribution is actually a 
symptom, not a problem. That is, if you had equally strong 
institutions with equal infrastructure, you get a very 
significant different distribution. And so I would focus not so 
much on where do they make the grants, but how do we strengthen 
institutions across the country.
    A specific example. If the federal government only sets a 
limited number of supercomputing facilities at specific places 
and then builds an Internet connectivity to handle that level 
of data between those data, you've just defacto described who's 
going to go to bid on certain sets of problems, period.
    And one of the reasons I'm for such a dramatic increase in 
the budget is, we need to wire, with scientific volume of data 
flow, every major institution in the country. And the truth is, 
we need to wire every high school lab in the country, and the 
high school labs are in worse shape than the college labs. So 
you have kids who are told, ``You have great football 
equipment. But, by the way, we don't have anything in the 
chemistry lab this year.''
    And we just need to be honest as a country about the scale 
of investment you're describing if you want every child to 
really have access, and every person in a minority community or 
a rural community. That's the second.
    Part of this becomes a ``circle of timidity.'' And I was 
just asking Mr. Podesta, when he was the number-two guy in the 
White House under the President--I guess number three if you 
count the President as number one, or number four if you want 
to count the Vice President----
    [Laughter.]
    Mr. Gingrich.--but he was the Deputy Chief of Staff. And we 
worked endless--what seemed at the time to be endless hours on 
getting to a balanced budget, and I am very proud that we did 
that. But we did it very selectively. There were some things 
that were going up, like NIH, and other things that weren't 
going up, and it was hard.
    But one of the reasons we could do it was both the White 
House and the Congress had reached the conclusion to break out 
of what I would call a ``circle of timidity.'' And that 
circle--and you both will remember--was, well, you have this 
big a deficit, and you can only change it at the margins. It's 
really not worth fighting over the margins, so we never quite 
got around to doing anything. And we got into a dialogue that 
said, ``No, let's talk about what would it, balanced, be 
like?''
    Well, this is the same thing here. I wrote a piece for 
the--I think it was in Science a year ago--that said if you 
were to go out--and this Subcommittee might be willing to do 
this--and ask the scientific community, ``Don't tell us in a 
circle of timidity. If you had four percent more to spend, what 
would you do next year?'' Tell us what the opportunities are in 
science which, if we were funding them----
    And the model I used was the international geophysical year 
of 1958 to 1960--it was actually an 18-month year--which 
revolutionized geology--absolutely turned it on its head 
overnight, because suddenly we found out, by doing a series of 
deep hole bores that had never--we could never have done 
without that scale project--that all of our current theories 
were just plain wrong. All of our current plate tectonics, all 
of our understanding of floating continents, all of our 
understand of modern paleontology comes out of that 18-month 
dramatic breakthrough.
    If you went back to the scientific community and said, 
``Tell us what you would dream of if you thought a budget was 
possible,'' you would be startled at the opportunity.
    And to come back to your point, Senator, I actually think 
it would be useful to have the President's science advisor pick 
up on your theme and once a week send every member in the House 
and Senate the five most interesting things and what they might 
mean, because you'd start to discover, for example, down at the 
nano level, the American Cancer Society believes they may 
literally cancer within 15 years. Gone. It is conceivable with 
breakthroughs in brain science that by the time the babyboomers 
worry about Alzheimer, they won't worry about it. It is 
conceivable that breakthroughs in energy, you can begin to move 
towards fuel cells in a way that just breaks the back of 
current calculations, meets the California air standards, and 
liberates us of the Middle East.
    But these are the kind of dreams that historically make us 
Americans, and we've gotten into this cycle in the science 
community of being practical. So we're only going to ask for 
the next set of practical things, and dreaming, frankly, is not 
practical, although, in the end, it changes the world.
    Senator Allen. Mr. Speaker, as usual, you're very 
inspirational. That is the way that I think that we do need to 
present it. We're talking about balance here, balance there, 
and so forth, but what does this really mean?
    And, in fact, in the energy bill, there were some 
differences in it. Some of the bad ideas that I considered bad 
were defeated. Some of the good ideas that I thought we needed 
for greater independence were not adopted. The one thing that I 
know that Senator Wyden and I agreed on were the new 
technologies for the future. Don't just keep thinking we're 
going to continue with internal combustion engine. Let's get to 
the hydrogen fuel cells and have incentives for marketplace 
acceptance. And I think that the automobile dealers, 
manufacturers, all the rest want to do it, and I think that the 
people will. And the sooner we can get to it--it is a national 
security matter, but it also is an environmental matter.
    I see that there's no circle of timidity, or panel of 
timidity, here in your advocacy, and--nor should there be. As I 
said in the beginning, we should only be limited by our 
imagination, but you do need to inspire and motivate people.
    And the Chairman and I were talking when John--Mr. Podesta 
was talking about the President getting these briefings. It 
fits perfectly as to some of the new ideas that are being 
considered. That's why I love going to NASA Langley and seeing 
what they're doing there and those capabilities. And really 
it's inspirational.
    The same at VCU. When trying to study and determine the 
science behind embryonic stem cell research--not that you're 
doing it on humans; you're doing it on mice--but, nevertheless, 
just the science, to understand the facts and then apply one's 
own values to that.
    But I think that we could have a Wyden-Allen monthly 
report, or whatever. I think it's important for folks to know 
what is going on, because I think it's exciting. I only wish 
with some of the things that are going on, especially in the 
medical and life sciences, I were younger, because life will be 
better in future years. But it's important for us, as 
Americans, to lead. Our universities are absolutely essential 
in it.
    And I'm also glad to see that many universities I know of--
just speaking for the Commonwealth of Virginia, not every 
university has the capability of doing all these different 
things. Some have strengths, whether it's in microelectronics, 
some may be more in the biological areas. But what they're 
doing is teaming up.
    And I recognize that sometimes whoever gets that grant is 
going to be the one that's going to get it from here on out, 
but you don't just see it within Virginia. You see them going 
across state lines, where they're dealing with Johns Hopkins 
and Virginia universities or universities in Texas, and it's 
good to see that sort of cooperation so that these competitions 
get the best out of all the people in all the universities in 
our country, as opposed to just, ``Gosh, it's--Oregon's winning 
it all to the detriment of Montana,'' for example.
    So it's great to have you all here. Thank you, again, Mr. 
Speaker for your inspiration, and all of your inspiration in 
what you're doing that's important for your students, but 
obviously very important for the future of our country and our 
economic security, but most importantly, really, our leadership 
in the world, because this is a country that, with this 
research, it will be put to good uses. This technology, as we 
well know, if, in the hands of people who don't have the values 
and the love of freedom and liberty that we do, can be quite 
harmful.
    So, again, thank you all so much. And, Mr. Chairman, thank 
you for assembling such a wonderful hearing today for this 
Subcommittee. I hope all our members will read and will be 
inspired and will follow up with each and every one of you.
    Thank you.
    Senator Wyden. Well, I thank my colleague. Senator Allen, I 
think you've asked just all of the key questions.
    And what's striking about, particularly, this idea of a 
science report, you could put something like this on the Web 
and not only just have members of Congress, but have the 
country really look forward to the fact that, on a regular 
basis, they'd be able to get engaged, in a sense, at the 
highest level of government in state-of-the-times information 
about these kinds of questions. It was a very interesting 
discussion you all had with Senator Allen.
    Just a couple of other questions, and then we'll let you 
go. On the nanotechnology initiative--and I know, Mr. Speaker, 
you're doing some very interesting and important work with this 
nano-business alliance and the like--I've been struck by how 
we're already starting to have people raise some of the social 
questions that underlie the technology questions. Dr. Bill Joy 
of Sun Microsystems said people are already asking, apparently, 
about the fear of tiny robots with minds of their own and the 
like.
    As we wrap up, are you able, as you deal with these 
technology questions, to come up with some principles that 
you've been able to identify for addressing some social 
questions that underlie the technology debate? I mean, 
obviously, they're different, but what people always want to 
talk about are the various risks and benefits and the like. And 
more and more we're seeing particularly the opponents of some 
of these technology innovations raise these very dark, you 
know, ominous sounding kind of social, you know, ramifications. 
I'd be curious as to how you approach some of those social 
issues.
    Mr. Gingrich. Let me say, first of all, that I want to 
commend President Clinton on this initiative, because it was 
his Administration's leadership that identified and put 
together the National Nanotechnology Initiative, which I think 
was really one of the most important long-term investments the 
Administration engaged in. He deserves a lot of credit for 
recognizing it early. And it may have come out of those Sunday 
night perusings.
    Well, look, I think there are two groups of dangers that 
are inevitable. One is things we generally don't understand. 
For example, I used to teach environmental studies. And if you 
look at the original case in Wisconsin on DDT, it is 
fascinating how we really didn't understand what the effects 
were on birds, what the effects were on the entire food chain. 
And I think that's--there are cases where you have to back up a 
half step and say, ``Well, that didn't work.''
    Or, if you look at Britain, where they ran out of wood and 
began burning coal, and much of the fog of England was, in 
fact, simply smog. And London has much less smog today because 
they don't burn coal anymore and--but the hearths--nobody had 
any idea what the health side effects were of having open-
hearth burning of coal in all of London for a 200-year period, 
but they were clearly--they were better than not being warm, 
but they were worse than modern central heating.
    So I think there are things that are byproducts of 
technology that you've got to always be looking for, you've 
always got to be aware of. And over time, you try to 
compensate. And just--we were talking about the internal 
combustion engine, for example, which clearly has some impacts 
on air pollution and on global warming, versus moving to the 
next-generation solution with a fuel cell.
    The other thing you have to worry about are certain kinds 
of technology--and I would say that engineered biologicals is 
one of these--where the--where you have to understand it, 
because the risk of somebody else understanding it first is so 
horrifying that you have--the very fear of it forces you to be 
really good at it.
    And I think we've now come to the conclusion as a country 
that you actually have to have a very aggressive biological 
program just to understand what potentially could be done, 
either by a random nut--and I think it's going to turn out to 
be much easier to do than people thought five years ago. And I 
think the danger of an engineered biological may be the largest 
single threat on the planet today, larger than a nuclear war, 
as horrifying as that would be.
    But I just would close with two other thoughts, and maybe 
this is why I'm a perennial optimist, as Senator Allen was sort 
of accusing me of being a moment ago. It's true. I always 
dream. I am always optimistic, and for two reasons. One is a 
great letter that was sent to Werner Von Braun late in the moon 
program at Huntsville, by a woman who said to him, you know, 
``Why don't you--you know, we shouldn't go to the moon. God 
doesn't want us to do things like that. Why don't you stay home 
and watch TV the way God intended?''
    [Laughter.]
    Mr. Gingrich. And the lady had probably no sense that the 
technology she was used to was the revolution of the previous 
generation.
    And as a historian, I would just suggest to you that while 
we haven't yet found in the cave writings, we will someday find 
the ``anti-fire faction,'' having written on caves.
    [Laughter.]
    Mr. Gingrich. And we'll also find that ``bow and arrows are 
cheaters factions,'' saying, ``Real men use spears. Only 
sissies use bow and arrows.'' Because I think it's been true of 
the entire human history that whatever the next phase of new 
knowledge was, the last group was going, ``Boy, that's not 
right.''
    And some of this you just have to accept, digest, and keep 
moving forward within the framework I described.
    Senator Wyden. Very good. What a rollicking ride this 
afternoon has been, and I thank you for it.
    Senator Allen. Most all of us want to ride horses, though, 
just for the fun of it.
    Senator Wyden. There you are.
    [Laughter.]
    Senator Wyden. The only other question was for John 
Podesta. On the cross-agency initiatives that you all put 
together, how did you go about finding those? Because very 
often, I think, you know, one agency is percolating along with 
an idea, and another one is going at it, as well, and the two 
don't even meet.
    You all put--and you see it in your testimony--put a lot of 
emphasis on inter-agency science initiatives, and that's 
something I think more ought to be done. Any lessons from what 
you all went through for making science policy today?
    Mr. Podesta. Well, as my written testimony talks about, I 
think that first the President had a vision about science as 
being a driver in the economy. And I think that he was quite 
interested in it and pushed it. I think selecting Vice 
President Gore, who was on this Committee and was one of the 
leaders on science policy, encouraged that.
    But I think one of the things that was most important was 
drawing in--science policymaking into the White House, the 
creation of the National Committee on Science and Technology, 
bringing the Cabinet secretaries to the table, having regular 
meetings with those people, you know, chaired at the White 
House by the President's science advisors, developing that 
inter-agency guidance between OMB and OSTP so that each agency 
knew what the priorities would be, ended up helping to create a 
culture in which people shared rather than feeling like they 
were fighting against each other for resources, both in the 
budget and the priority-setting process. And I think that that 
was all modeled, I think, after successful experiments really 
with the National Security Council, the National Economic 
Council. And that's, I think, a good model for trying to draw 
these various agencies together to see what the big 
opportunities are. Because just like the disciplines need to 
work together in this interdisciplinary approach to move 
science forward, and that's why the NSF is so important, so 
does, I think, the federal government need to organize itself 
in that regard.
    Senator Wyden. Well, I thank you all. And, you know, you 
really make science policy and technology policy come alive. 
And, in a sense, you know, budgets and a lot of the issues that 
we talk about, you know, in this town often look like just 
charts and figures and graphs and lots of white pages and black 
print. But I think what you've given us a sense of us is the 
hopes and aspirations of the public and the hopes and dreams 
that we're capable of reaching for.
    So this has really been good. It's been almost like teach-
in, in terms of science policy. Mr. Speaker, Mr. Podesta, you 
have, I think, driven home how important it is that these 
issues be tackled on a bipartisan basis, and I saw an awful lot 
of common ground. Our other panelists have been excellent, as 
well.
    And unless you have anything to add further, we'll excuse 
you at this time. The Subcommittee is adjourned.
    [Whereupon, at 4:59 p.m., the hearing was adjourned.]


                            A P P E N D I X

 Prepared Statement of Warren Washington, Chair, National Science Board
    Chairman Wyden and members of the Subcommittee, I appreciate having 
the opportunity to testify before you as Chair of the National Science 
Board. I am Warren Washington, Senior Scientist and Section Head of the 
Climate Change Research Section at the National Center for Atmospheric 
Research.
    On behalf of the National Science Board, I thank the Subcommittee 
for its sustained commitment to a broad portfolio of investments in 
science, mathematics, engineering, and technology research and 
education. These investments contribute to our Nation's long-term 
security and economic vitality and to the well being of all Americans.

The National Science Foundation's Budget Request
    The National Science Board has approved and supports the National 
Science Foundation's budget request for fiscal year 2003. The 5 percent 
increase in funding will allow NSF to continue to nurture the people, 
ideas, and tools needed to generate new knowledge and new technologies. 
Among the important initiatives that this budget includes are 
priorities for the science and engineering workforce; mathematical and 
statistical science research that will advance interdisciplinary 
science and engineering; and research in the social, behavioral, and 
economic sciences to explore the complex interactions between 
technology and society. The budget continues support for the Math and 
Science Partnership program; increases funding for the Foundation's six 
priority areas, which have the potential of enormous payoff for the 
Nation; and provides a much-needed increase in annual stipends for 
graduate fellows--a critical investment the future U.S. science and 
engineering workforce. The NSF Director, Dr. Rita Colwell, will discuss 
these and other specifics of the budget request in her testimony.
    As this Committee recognizes, NSF is a major contributor both to 
scientific research and science education. Federal investments in the 
basic sciences through NSF have produced new discoveries and new 
technologies essential to our national security and economic 
prosperity. In addition, NSF supports innovative education programs 
from pre-kindergarten through graduate school, preparing the next 
generation of scientists and engineers and contributing to a more 
scientifically literate workforce and society.
    Each year NSF evaluates, primarily through external peer review, 
32,000 proposals from 2,000 colleges, universities, and institutions. 
The value of the proposals is approximately $16 billion. NSF annually 
makes 10,000 awards, totaling nearly $3 billion, in a highly 
competitive merit review process. It is estimated that NSF proposals 
representing an additional $5 billion are worthy of investment if the 
funds were available.

The Health of the Science and Engineering Enterprise
    The new knowledge and technologies emerging today are a tribute to 
Federal research investments made years ago in a spirit of 
bipartisanship. When those investments began, no one could foresee 
their future impact. Revolutionary advances such as those in 
information technology, nanotechnology, materials, and biotechnology 
remind us that such breakthroughs with promising benefits to the 
economy, the workforce, our educational systems, and national security 
require long-term, high-risk investments.
    Among Federal agencies, NSF has the unique mission of advancing the 
Nation's health, prosperity, and welfare by supporting research and 
education in all fields of science and engineering. NSF plays a 
critical role in supporting new discoveries and knowledge as well as 
innovative educational programs at all levels. NSF-funded research and 
education are critical to sustaining U.S. strength in science and 
technology, a key element of national security.
    Despite widespread recognition of the benefits that result from 
federally supported scientific research, as a Nation, we are seriously 
under-investing in basic research. In our $10 trillion Gross Domestic 
Product, the Federal Government budgets $24 billion to basic research, 
which represents one-fourth of one percent of the Nation's Gross 
Domestic Product. Of the $24 billion, NSF receives $3 billion to 
support cutting-edge science and the search for new knowledge.
    Achieving a balanced portfolio in the basic sciences is as 
important as the quality and quantity of research funded. For example, 
as Congressional leaders and others have pointed out, the success of 
the National Institutes of Health's efforts to find cures for deadly 
diseases depends heavily on the underpinning of basic research 
supported by the National Science Foundation.

National Science Board Policy Studies
    In addition to providing oversight to NSF, the Board provides 
advice to the President and the Congress on matters of science and 
engineering policy. I would like to mention some of our current 
activities related to major issues affecting the health of the science 
and engineering enterprise.

Federal Investment in Science and Engineering
    The level of Federal investment is crucial to the health of the 
science and engineering enterprise. Equally crucial is how effectively 
that investment is made. The growing opportunities for discovery and 
the inevitable limits on Federal spending mean that hard choices must 
be made and priorities set.
    In its recent report, Federal Research Resources: A Process for 
Setting Priorities, the Board offers its recommendations for a more 
effective budget process, including an improved information base and a 
decision-making process for allocating Federal funding to research. The 
Board's conclusions are based on reviews of the literature on budget 
coordination and priority setting for public research and invited 
presentations from and discussions with representatives of the Office 
of Management and Budget, the Office of Science and Technology Policy, 
the Federal research and development agencies, congressional staff, 
high-level science officials from foreign governments, experts on data 
and methodologies, and spokespersons from industry, the National 
Academies, research communities, science policy community, and academe.

U.S. Government Role in International Science and Engineering
    In the 21st century, advances in science and engineering will to a 
large measure determine economic growth, quality of life, and the 
health and security of our planet. The conduct, communication, and use 
of science are intrinsically global. New ideas and discoveries are 
emerging all over the world and the balance of expertise is shifting 
among countries. Collaborations and international partnerships 
contribute to addressing a broad range of international problems. They 
also contribute to building more stable relations among nations by 
creating a universal language and culture based on commonly accepted 
values of objectivity, sharing, integrity, and free inquiry. The 
Federal Government plays a significant role in promoting international 
science and engineering activities and supporting research with 
international dimensions.
    In its recent report entitled Toward a More Effective Role for the 
U.S. Government in International Science and Engineering, the Board 
concludes that new approaches to the management and coordination of 
U.S. international science and engineering activities are needed if the 
United States is to maintain the long-term vitality of its science and 
engineering enterprise and the vitality of its economy. The Board 
recommends that the Federal Government (1) increase the effectiveness 
of its coordination of international science and engineering 
activities, (2) increase international cooperation in fundamental 
research and education, particularly with developing countries and by 
younger scientists and engineers; and (3) improve the use of science 
and engineering information in foreign policy deliberations and in 
dealing with global issues and problems.

U.S. Science and Engineering Infrastructure
    An area of constant concern for NSF and the Board is the quality 
and adequacy of infrastructure to enable scientific discoveries in the 
future. The rapidly changing environment of new knowledge, new tools, 
and new information capabilities has created a demand for more complex 
and more costly facilities for scientific research.
    A Board task force is assessing the current status, changing needs, 
and strategies needed to ensure that the Nation will have the 
infrastructure to sustain cutting-edge science and engineering 
research. We expect to receive the task force's preliminary findings 
this summer.

National Workforce Policies for Science and Engineering
    For U.S. leadership in science and engineering, there is no more 
important issue than the development of a skilled technical workforce. 
As a Nation, we are not attracting the numbers of science and 
engineering students our Nation needs to sustain its leadership. Nor 
are we successfully tapping all our domestic resources, especially 
under-represented minorities and women. The pool of potential science 
and engineering students will increasingly reflect the growing 
diversity in the American workforce and society.
    A Board task force on workforce policies for science and 
engineering is reviewing U.S. workforce needs, the role of foreign 
students and workers, and policy options for ensuring an adequate 
science and engineering workforce for the future. We anticipate 
receiving the task force's report by the end of this year.
    Mr. Chairman, at this point I would like to close my formal 
remarks. I thank the Subcommittee for its long-time support of the 
science community, especially the National Science Foundation, and for 
allowing me to comment on significant national policy concerns, as well 
as on the Foundation's budget request.

                                  <all>

</pre></body></html>
